Audit Report




OIG-10-011
SAFETY AND SOUNDNESS: Material Loss Review of American
Sterling Bank
November 25, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Results in Brief ............................................................................................ 2

    Causes of ASB’s Failure ............................................................................... 3
      Losses Sustained by ASB’s Mortgage Banking Operation ............................. 3
      Ineffective Management and Inadequate Board Oversight ............................ 7

    OTS’s Supervision of ASB ............................................................................      13
      Significant Areas of Supervisory Weaknesses Prior to 2008…………………….                                       15
      OTS’s Internal Failed Bank Review Identified Areas Needing Improvement…..                                18
      OTS’s Use of Prompt Corrective Action. ....................................................              19

    Recommendations ....................................................................................... 21

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ................................... … 24
    Appendix     2:      Background.......................................................................... 27
    Appendix     3:      Glossary of Terms ................................................................ 32
    Appendix     4:      Chronology of Significant Events ............................................ 39
    Appendix     5:      OTS American Sterling Examinations
                         And Enforcement Actions ...................................................... 48
    Appendix     6:      Prior OIG Material Loss Review Recommendations……………… .. 56
    Appendix     7:      Management Comments ........................................................ 60
    Appendix     8:      Major Contributors to This Report ........................................... 61
    Appendix     9:      Report Distribution ................................................................ 62

Abbreviations

    ASB                  American Sterling Bank
    ASC                  American Sterling Corporation
    ALLL                 allowance for loan and lease losses
    CEO                  chief executive officer
    C&D order            cease and desist order
    Countrywide          Countrywide Home Loans
    CRP                  capital restoration plan
    FDIC                 Federal Deposit Insurance Corporation
    GAAP                 generally accepted accounting principles
    HFS                  held-for-sale


                         Material Loss Review of American Sterling Bank (OIG-10-011)                         Page i
MRBA   matter requiring board attention
OTS    Office of Thrift Supervision
PCA    prompt corrective action
REO    real estate owned
ROE    report of examination
USB    Universal Savings Bank




       Material Loss Review of American Sterling Bank (OIG-10-011)   Page ii
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                        November 25, 2009

                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our review of the failure of
                        American Sterling Bank (ASB), of Sugar Creek, Missouri, and of the
                        Office of Thrift Supervision’s (OTS) supervision of the institution. OTS
                        closed ASB and appointed the Federal Deposit Insurance Corporation
                        (FDIC) as receiver on April 17, 2009. Section 38(k) of the Federal
                        Deposit Insurance Act mandated this review because of the magnitude
                        of ASB’s estimated loss to the deposit insurance fund. 1 As of
                        October 31, 2009, FDIC estimated that loss would be $41.9 million.
                        FDIC also estimated that ASB’s failure resulted in a loss of $0.2
                        million to its Transaction Account Guarantee Program.

                        The objectives of our review were to determine the causes of ASB’s
                        failure; assess OTS’s supervision of the thrift, including
                        implementation of the prompt corrective action (PCA) provisions of
                        section 38; and make recommendations for preventing any such loss
                        in the future. To accomplish these objectives, we reviewed the
                        supervisory files and interviewed key officials involved in the
                        regulatory enforcement matters. We conducted fieldwork at OTS’s
                        headquarters in Washington, DC; its Western Region Office in Irving,
                        Texas; and at ASB’s former headquarters in Sugar Creek, Missouri.
                        We also interviewed officials and examiners at FDIC’s Division of
                        Supervision and Consumer Protection in Kansas City, Missouri, and
                        interviewed personnel from FDIC’s Division of Resolutions and
                        Receivership. Appendix 1 contains a more detailed description of our
                        objectives, scope, and methodology.

                        This report contains several other appendices. Appendix 2 provides
                        background information on ASB and OTS’s thrift supervision
                        processes. Appendix 3 is a glossary of terms used in this report (when

1
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.


                        Material Loss Review of American Sterling Bank (OIG-10-011)                   Page 1
               first used in the text, the terms are underlined and hyperlinked to the
               glossary). Appendix 4 is a chronology of significant events related to
               ASB and OTS’s supervision of the thrift. Appendix 5 contains
               significant examination results and information on enforcement
               actions.


Results in Brief
               The causes of ASB’s failure were (1) losses sustained by its mortgage
               banking operation and (2) ineffective management and inadequate
               board oversight. Among other things, ASB senior management
               engaged in a litany of improper accounting transactions starting in
               2007 that masked the thrift’s deteriorating financial condition. We
               referred these transactions to the Treasury Inspector General’s Office
               of Investigations. The thrift’s inaccurate financial reporting delayed
               OTS from taking required PCA as the thrift’s capital was depleted.

               OTS’s supervision did not adequately address ASB’s problems early
               enough to prevent a material loss to the deposit insurance fund. OTS
               did not require ASB to scale back its mortgage banking operation even
               though the bank was experiencing continuous losses and high staff
               turnover. In addition, OTS did not enforce federal banking regulations
               or follow its own guidance requiring ASB to hold additional capital to
               mitigate its recourse exposure to sold loans. OTS also did not
               adequately review a noncash capital contribution of a participation
               loan to ASB by ASB’s holding company.

               It should be noted that OTS conducted an internal failed bank review
               of ASB’s failure. OTS’s internal review found that ASB’s failure
               primarily resulted from (1) losses related to the thrift’s significant
               mortgage banking operation and an excessive concentration in held-
               for-sale (HFS) loans and (2) inadequate management and insufficient
               independence from the operations of American Sterling Corporation
               (ASC), the thrift’s holding company. OTS’s review concluded that it
               should have (1) taken increasingly aggressive steps with ASB’s
               management and board to scale back or at least minimize the scope of
               the institution’s mortgage operation and (2) placed more emphasis on
               ensuring that supervision and administration of the thrift by its board
               and management were not subject to the dominating adverse
               influence of the chief executive officer (CEO) and the management of



               Material Loss Review of American Sterling Bank (OIG-10-011)     Page 2
             ASC. Our material loss review affirmed OTS’s internal findings and the
             need for earlier corrective action.

             We also concluded that as ASB adjusted and refiled its financial
             reports as required by OTS, OTS used its authority under PCA in an
             appropriate and timely manner.

             We are recommending that OTS (1) ensures that action is taken on its
             internal failed bank review of ASB; (2) reminds supervisory and
             examination staff of the importance of requiring thrifts to hold capital
             to mitigate their recourse exposure on sold loans; (3) reminds
             supervisory and examination staff to scrutinize capital contributions
             made to thrifts, especially noncash capital contributions; and
             (4) ensures examiners take forceful action to mitigate losses whenever
             a thrift’s line of business incurs losses that threaten the viability of the
             institution.

             In a written response, OTS concurred with our recommendations and
             agreed to implement the recommended actions in a timely manner.
             OTS stated that it has taken action pursuant to its internal failed bank
             review of ASB. These actions included issuing new internal guidelines
             in May 2009 to ensure appropriate enforcement action and issuing a
             memorandum to thrift chief executive officers in July 2009 to address
             asset and liability concentrations and related risk management
             practices. Although we consider OTS’s planned actions to be
             responsive to our recommendations, OTS did not identify estimated
             dates for completing its planned actions. OTS will need to develop and
             record in the Joint Audit Management Enterprise System (JAMES), the
             Department of the Treasury’s audit recommendation tracking system.
             OTS’s response is provided as appendix 7.


Causes of ASB’s Failure
             ASB failed because of losses sustained by its mortgage banking
             operation and because of ineffective management and inadequate
             board oversight.




             Material Loss Review of American Sterling Bank (OIG-10-011)        Page 3
Losses Sustained by ASB’s Mortgage Banking Operation

ASB was unable to recover from the severe losses incurred primarily
from its mortgage banking operation. The expansion of ASB’s
mortgage banking operation just prior to the crisis in the mortgage
market significantly contributed to its large losses. Additionally, the
thrift did not maintain adequate capital to cover its recourse exposure
on sold loans.

ASB organized its mortgage banking operations in Irvine, California, in
1997. In 2001, OTS examiners noted in their report of examination
(ROE) that ASB had a very active mortgage banking division and
depended on the sale of loans to be profitable. ASB significantly
expanded its mortgage banking operation in August 2006, when it
acquired the mortgage banking division of Universal Savings Bank
(USB) located in Milwaukee, Wisconsin. With this acquisition, ASB
increased its staff size by 123 and acquired nine loan production
offices located in several states. Figure 1 shows the volume of ASB’s
loan production from 2001 through 2008.

Figure 1: ASB Loan Production, 2001-2008 (millions)
  $1,800
  $1,600
  $1,400
  $1,200
  $1,000
   $800
   $600
   $400
   $200
      $0
            2001    2002   2003    2004   2005   2006    2007   2008


Source: OTS’s 5-Quarter Uniform Thrift Performance Report for ASB.

ASB was profitable from 2001 through 2005, reporting more than
$11 million in net income over the 4 year period, despite high
overhead expenses associated with its mortgage banking operation.
However, OTS examiners noted that ASB’s mortgage banking
operation led to volatility in its earnings. For example, in the 2002
ROE, OTS examiners stated that poor results from the thrift’s


Material Loss Review of American Sterling Bank (OIG-10-011)            Page 4
mortgage banking operation were the primary reason for its below-
average earnings. In the 2004 ROE, OTS examiners stated that
although ASB’s earnings remained volatile, they improved substantially
during the review period because of the volume of ASB’s mortgage
banking operation. Then ASB’s net income declined from $3.5 million
in 2004 to $1.1 million in 2005, and its mortgage banking division had
a net loss of $769,000 in 2005. ASB’s earnings deteriorated further
after its acquisition of USB’s mortgage banking division in August
2006 because of increased overhead expenses and difficulty in selling
loans to the secondary market.

ASB reported consecutive quarterly net losses beginning in the fourth
quarter of 2005 through the fourth quarter of 2007. After being
profitable in the first quarter of 2008, ASB’s quarterly losses resumed
in the second quarter of 2008. ASB reported annual net losses of $1.7
million in 2006, $3.7 million in 2007, and $40.9 million in 2008.
These losses resulted from (1) a decline in gains from loan sales,
(2) losses incurred by ASB’s mortgage banking division, and (3) ASB’s
difficulty in selling Alt-A loans due to market concerns about the risk
posed by subprime mortgage loans. In addition, despite increased loan
production in 2007 and 2008, as shown in figure 1, ASB’s mortgage
operation was not profitable because ASB had expended substantial
time and incurred substantial expense processing applications for loans
that ultimately did not close.

Inadequate Capital to Support Recourse Provisions

As a significant part of its business, ASB originated and then sold
mortgage loans to investors. For most sales, the sale agreements
contained recourse provisions that required ASB to repurchase loans
or refund fees if certain events occurred within a specified period of
time. These events included early payment default, early payoff,
borrower fraud and misrepresentation, and noncompliance with
investor underwriting standards. Figure 2 shows the amount of loans
that ASB sold with recourse exposure from the first quarter of 2006
through the fourth quarter of 2008.




Material Loss Review of American Sterling Bank (OIG-10-011)    Page 5
                        Figure 2: ASB’s Loans Sold With Recourse, by Quarter (millions)

                                     $600


                          Millions
                                     $500

                                     $400

                                     $300

                                     $200

                                     $100

                                      $0




                        Source: OTS’s 5 Quarter Uniform Thrift Performance Report for ASB


                        Federal banking regulations define recourse and require that recourse
                        obligations be weighted for risk in determinations of an institution’s
                        risk-based capital. 2 In addition, OTS’s examination handbook requires
                        that institutions hold capital on a recourse exposure for the full
                        amount of the transferred assets, as if the assets were still on the
                        balance sheet. 3 One exception in the OTS examination handbook is
                        that a thrift does not have to hold recourse capital for qualifying one-
                        to-four-family residential loans that the thrift has sold if the sale
                        contract allows only 120-days or less for return of those loans.

                        Many of ASB’s sale agreements contained recourse provisions that
                        allowed the return period for the sold loans beyond 120 days.
                        Therefore, ASB should have risk-weighted these loans and included
                        them in its calculations for determining risk-based capital. However,
                        ASB included only the assets reported on its balance sheet in its risk-
                        based capital calculations, and did not hold any additional capital to
                        account for its recourse exposure. In the 2007 ROE, OTS examiners
                        stated that ASB’s risk-based capital ratios did not reflect the risk
                        weighting of sold loans that ASB might have to repurchase. In

2
    12 CFR 567
3
    OTS Examination Handbook, section 221, app. B.


                        Material Loss Review of American Sterling Bank (OIG-10-011)         Page 6
addition, the examiners’ workpapers showed that, as of March 31,
2007, ASB’s capital should have been much higher than the amount
on its books if OTS guidance had been followed. With the exception
of the 2007 ROE and related workpapers, we did not find sufficient
information in OTS’s other ROEs and examination workpapers to make
a determination on how much of ASB’s sold loans should have been
risk weighted and included in determining ASB’s risk weighted capital
requirements, for the periods covered by those ROEs.

By 2008, due in part to the downturn of the mortgage market,
investors began to examine the performance of their loan purchases;
as a result, many of ASB’s loan purchasers demanded that the thrift
repurchase the loans. Countrywide Home Loans (Countrywide), one of
ASB’s largest loan purchasers, demanded that ASB repurchase
approximately $32.5 million in loans due to early payment default.
While ASB and Countrywide settled this claim for $4.3 million, ASB
received an additional $18 million in claims for repurchase from six
other loan purchasers in January 2009, although ASB’s management
and legal counsel estimated the repurchase or settlement loss to be
approximately $690,000. By March 2009, ASB informed OTS of that
it had received an additional $23.1 million in repurchase claims from
investors.

Another contributing factor to ASB’s mortgage banking related losses
in 2008 was an OTS-required $10.3 million write down to record
ASB’s held for sale (HFS) loans at fair value. ASB had reported its HFS
portfolio at par, which was improper in light of market conditions and
not in accordance with generally accepted accounting principles
(GAAP).

Ineffective Management and Inadequate Board Oversight

ASB management did not adequately identify, measure, monitor, or
control significant risks that threatened the viability of the institution,
as evidenced by (1) improper accounting transactions that distorted
capital and income, (2) ASB’s ill-timed acquisition of USB’s mortgage
banking division, and (3) significant staff turnover. In addition, ASB’s
CEO had a dominant influence over the board of directors, who did not
question the actions of senior thrift management.




Material Loss Review of American Sterling Bank (OIG-10-011)       Page 7
                       Improper Accounting Transactions

                       ASB’s senior management engaged in a litany of improper accounting
                       transactions that concealed and distorted ASB’s true financial
                       condition. Some of these transactions also allowed ASB to
                       inaccurately report its PCA status as well-capitalized as of March 31,
                       2008, when in fact it was not well capitalized. As a result, ASB
                       improperly accepted $19 million of brokered deposits. 4 ASB was
                       required to reverse the following improper transactions when OTS
                       examiners identified them during the June 2008 examination:

                           Loan to a not-for-profit foundation Made in 2001, ASB charged off
                           the balance of this loan, $390,000, in 2005. ASC, the holding
                           company, assumed the loan from ASB in an attempt to collect the
                           amount owed. In 2007, ASC contributed the loan back to ASB as a
                           $400,000 capital contribution. As recorded by ASB, this
                           transaction resulted in a $265,000 after-tax gain and increased
                           ASB’s capital by $265,000. OTS examiners determined that this
                           loan was a worthless asset that was improperly included in ASB’s
                           capital. In this regard, section 110 of OTS’s examination handbook
                           allows savings associations to only accept, without limit, cash,
                           cash equivalents, or other high-quality marketable assets as capital
                           contributions. A savings association may not accept other forms of
                           contributed capital without receiving prior approval from OTS. ASB
                           did not obtain such approval.

                           Loan to a state political party In April 2007, ASC contributed to
                           ASB a $2 million loan participation of a $3 million loan to a state
                           political party. ASB credited the loan participation to capital with
                           the understanding that the borrower would repay the loan by
                           June 30, 2007. However, no payments were made on the principal
                           and the loan participation was never paid off. Moreover, it was not
                           a loan that ASB could have made under its lending authority
                           because the thrift did not obtain any financial information on the


4
  If ASB had not recorded the improper transactions, it would have had to report its status as
undercapitalized rather than well-capitalized (a drop of 2 regulatory capital levels). 12 CFR § 337.6 provides
that an undercapitalized insured depository institution may not accept, renew, or roll over any brokered
deposit.




                       Material Loss Review of American Sterling Bank (OIG-10-011)                  Page 8
    borrower, analyze the borrower’s repayment capability, or seek
    approval for the loan participation from ASB’s board of director’s
    loan committee. Further, like with to the loan to the not-for-profit
    organization, ASB did not obtain the required prior approval from
    OTS.

    Capital surplus entries In early 2008, ASB recorded two journal
    entries for accounts receivable from ASC. The entries were posted
    as receivables in the thrift’s general ledger for $280,000 and
    $470,000, with a credit to ASB as capital surplus of $750,000.
    ASB’s senior management reported that this capital contribution
    was based on the proceeds of the anticipated sale of property
    owned by ASC. These journal entries were not supported by any
    documentation or actual capital contribution to ASB. ASB’s senior
    management backdated these journal entries to December 31,
    2007, to allow ASB to meet minimum capital levels and to report
    its status as well-capitalized as of December 31, 2007.

The recording of the above three transactions ultimately resulted in
ASB’s filing inaccurate quarterly thrift financial reports for June 2007
through March 2008. Upon discovery of these transactions, OTS
directed ASB to reverse them, rendering ASB undercapitalized as of
July 29, 2008, and in troubled condition. Other examples of improper
accounting transactions that concealed and distorted ASB’s true
financial condition are discussed below.

    Lender’s representation and warranty insurance master policy In
    December 2007, ASB purchased a lender’s representation and
    warranty master policy from American Sterling Insurance
    Corporation, an affiliated entity, to defer the impact of losses at
    the bank over a 24-month period. The mortgage insurance was
    applied to loans held for sale, loans in the portfolio, and real estate
    owned (REO). In accordance with GAAP, ASB was required to
    record REO at the lower of cost or market value less cost to sell.
    However, ASB netted the projected losses against expected
    insurance recoveries, effectively reflecting REO at an amount
    higher than net realizable value and understating expenses in its
    income statement. ASB management used the mortgage insurance
    program to continue to report inflated capital and minimize loan
    losses on its thrift financial reports, allowing ASB to avoid
    regulatory intervention and controls that would have limited the


Material Loss Review of American Sterling Bank (OIG-10-011)        Page 9
                           growth of its wholesale mortgage business. ASB also did not
                           classify assets in accordance with regulatory guidance or its policy,
                           or maintain an adequate allowance for loan and lease losses
                           (ALLL). In addition to being a violation of GAAP and inconsistent
                           with regulatory guidance, 5 the insurance did not comply with
                           regulations related to transactions with affiliates 6 and OTS’s
                           conflicts of interest regulation. 7 At OTS’s direction, ASB rescinded
                           the warranty policy.

                           HFS loans and REO valuations ASB elected to adopt Statements of
                           Financial Accounting Standards 157 and 159 as of January 1,
                           2007, which required that ASB report its HFS mortgage loans at
                           the lower of cost or fair value and to report unrealized gains and
                           losses on items for which the fair value option has been elected in
                           earnings at each subsequent reporting date. Therefore, ASB should
                           have obtained fair value valuations for its HFS and REO assets
                           beginning in the first quarter of 2007. ASB management, however,
                           decided to carry the HFS assets at par, and did not carry the REO
                           assets at fair value. On August 28, 2008, OTS directed ASB’s
                           management to obtain a third-party valuation for its HFS portfolio.
                           That valuation identified a loss of $3 million for the portfolio. ASB’s
                           independent auditor questioned the independence of the third party
                           chosen by ASB’s management. 8 Therefore, again at OTS’s
                           direction, ASB obtained a second third-party valuation that
                           determined that an $11.5 million write-down was required to state
                           REO and HFS loans at fair value. At OTS’s direction, ASB recorded
                           the HFS portfolio at fair value based on the second valuation.

                           Deferred tax asset As of December 31, 2007, ASB had $11.8
                           million of cumulative net operating losses, which resulted in a
                           deferred tax asset of $4.6 million. 9 ASB’s management was unable
                           to provide adequate support that this asset would be realized. After
                           being directed by OTS to establish a valuation allowance in

5
  Interagency Guidance on Certain Loans Held for Sale (Mar. 26, 2001).
6
  12 CFR 223.51, 12 CFR 223.52, and 12 CFR 563.41.
7
  12 CFR 563.200.
8
  At the time of receivership in 2009, ASB’s independent auditor had not completed its audit of the thrift’s
financial statements for the year ended December 31, 2007, and had not started the audit for 2008. Prior
to 2007, ASB had received unqualified opinions on its financial statements.
9
   A deferred tax asset is measured using the applicable enacted tax rate and provisions of the enacted tax
law. A deferred tax asset is reduced by a valuation allowance if, based on the weight of evidence available,
it is more likely than not that some portion or all of a deferred tax asset will not be realized.


                       Material Loss Review of American Sterling Bank (OIG-10-011)               Page 10
    accordance with GAAP for the assets, ASB wrote-off the asset
    value in August 2008 thereby reducing capital by $4.6 million.

    Accrued loan fee income In December 2008, ASB’s chief operating
    officer reported to OTS that ASB had recorded nearly $707,000 of
    loan fee income on April 30, 2008, related to refinancing a group
    of mortgage loans that ASB did not own and that ASB had never
    refinanced or purchased. As a result of this transaction, ASB’s net
    losses for the quarters ending June 30, 2008, and September 30,
    2008, were understated, and ASB’s capital position and reported
    capital ratios were overstated. According to OTS examiners, ASB’s
    management deliberately made these entries to inflate earnings and
    increase capital. OTS examiners said that when asked about the
    rationale for these transactions, senior ASB management stated
    that they had been undertaken to keep the thrift in the well-
    capitalized category.

We referred the improper accounting transactions discussed above to
the Treasury Inspector General’s Office of Investigations.

Ill-Timed Acquisition of USB Mortgage Banking Division

ASB’s primary business activity was mortgage banking, which it
greatly expanded in August 2006 through its acquisition of USB’s
mortgage banking division. ASB hired all 123 former employees of the
division, approximately doubling the number of thrift employees. ASB
also acquired nine loan production offices and opened an additional
three in 2007. According to OTS’s examination staff, ASB’s
acquisition of the USB mortgage banking division was not supported
by proper due diligence or proper board approval. In addition, ASB
made the purchase when the mortgage market was beginning its
downturn and other loan producers were attempting to reduce their
mortgage banking exposure. Both the increase in personnel and loan
production offices immediately increased ASB’s operating costs. The
thrift’s losses, which had begun in the fourth quarter of 2005,
accelerated after the acquisition. ASB continued to experience losses
in 2007 and 2008 that were driven by high operating costs associated
with the institution’s ill-timed expansion of its mortgage banking
operations.




Material Loss Review of American Sterling Bank (OIG-10-011)   Page 11
Staff Turnover

Staff turnover was a chronic problem at ASB. In its 2002 ROE, OTS
examiners noted that ASB’s mortgage banking department performed
unsatisfactorily during the review period because excessive staff
turnover had disrupted operations. OTS also expressed concern about
whether ASB management could conduct business effectively in light
of frequent turnover of critical staff. In its 2007 ROE, OTS examiners
again noted significant staff turnover. Out of ASB’s 140 employees at
the beginning of 2006, 69 had left by year-end; departing employees
included top loan producers and other loan production personnel.
According to OTS’s examination staff, this turnover resulted partly
from the confrontational management style of ASB’s president, who
was terminated by ASB’s board in November 2006. Other key
departures between late 2005 and early 2007 included the compliance
officer and the controller.

Inadequate Board Oversight

A thrift’s board of directors is ultimately responsible for overseeing the
affairs of the thrift. Specifically, the board’s responsibilities include
(1) establishing business goals, standards, policies, procedures, and
operating strategies; (2) hiring and retaining executive officers with
the skills, integrity, knowledge, and experience appropriate for the
nature and scope of their responsibilities; (3) periodically evaluating
management’s performance; and (4) reviewing operating results. At
ASB, the board of directors failed to exercise sufficient oversight of
the thrift’s management.

As early as 2001 and 2002, OTS examiners noted that the thrift’s
CEO was a dominant influence over the board. In the 2008 ROE, OTS
examiners stated that board oversight during the review period was
poor to nonexistent and that despite the thrift’s poor financial results,
only isolated instances of tough questioning of the thrift’s CEO by the
board occurred. Among the deficiencies noted by OTS examiners were
the board’s lack of knowledge about ASB’s numerous accounting
deficiencies and the significant issues threatening the thrift’s viability.
Our review of minutes from ASB board of directors meetings from
2004 through early 2008 confirmed these observations. For example,
we found no evidence that senior ASB management had properly
informed the board about major decisions and issues, such as the



Material Loss Review of American Sterling Bank (OIG-10-011)      Page 12
                      acquisition of USB’s mortgage banking division, the capital
                      contributions made by the holding company, or the financial condition
                      of the bank prior to 2008.

                      After being notified of the thrift’s various problems by OTS examiners
                      in August 2008, the thrift’s board took action, consenting to OTS’s
                      cease and desist (C&D) order, conducting more meetings, questioning
                      senior ASB management, and communicating with OTS.

                      Agreement for Sale of ASB Not Completed

                      On January 9, 2009, ASC entered into an agreement for the sale of
                      ASB stock to a potential acquirer. On January 15, 2009, OTS
                      approved the potential acquirer’s holding company application related
                      to the acquisition of ASB. The potential acquirer, however, was unable
                      to complete the acquisition of ASB and on April 17, 2009, OTS closed
                      ASB and appointed FDIC as receiver.

     OTS’s Supervision of ASB
                      OTS’s supervision of ASB did not prevent a material loss to the
                      deposit insurance fund. OTS did not require ASB to scale back its
                      mortgage banking operation, follow guidance on recourse exposure, or
                      adequately review ASC’s noncash capital contribution of a
                      participation loan to ASB. We attribute these conditions to lack of
                      examiner adherence to existing OTS guidance, and not to a problem
                      with the guidance itself.

                      Table 1 summarizes the results of OTS’s safety and soundness and
                      limited examinations of ASB from 2004 until its closure. 10 Appendix 5
                      provides details of completion dates, matters requiring board attention
                      (MRBA), corrective actions, enforcement actions, and other findings
                      associated with the examinations.




10
  OTS conducted its examinations and performed off-site monitoring of ASB in accordance with the
timeframes prescribed in the OTS Examination Handbook.


                      Material Loss Review of American Sterling Bank (OIG-10-011)            Page 13
        Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against ASB
                                                     Examination Results
 Date             Total assets (in                             No. of      Formal
 started/date     millions) at time                Number of corrective    enforcement
                                  a
 mailed           of examination    CAMELS rating MRBA         actions     actions
 3/29/2004          $239                   2/222222              0                0            None
 5/11/2004
 1/3/2006           $194                   2/222222              0                0            None
 3/9/2006
 4/09/2007          $249                   3/223322              3                3            None
 7/23/2007
 6/27/2007          NA                     Limited exam: CAMELS composite rating downgraded from 2 to 3
 6/27/2007
 4/9/2008           NA                     Limited exam: CAMELS Asset quality rating downgraded from 2 to 3
 4/9/2008
 6/30/2008          $258                   5/545544              13               15           C&D order, effective
 12/5/2008                                                                                     8/20/2008
                                                                                               PCA directive,
                                                                                               effective 1/15/09
                                                                                               Civil money penalty,
                                                                                               effective 3/30/09
 7/29/2008a         NA                     Limited exam: CAMELS composite rating               Issuance of PCA
 7/30/2008                                 downgraded from 3 to 4 and recommended              directives associated
                                           downgrades of CAMELS Capital adequacy,              with undercapitalized
                                           Management administration, Earnings, and            status
                                           Sensitivity to market risk ratings from 2 to 4

 8/1/2008a          NA                     Limited exam: CAMELS composite rating              Issuance of PCA
  8/1/2008                                 downgraded from 4 to 5, and CAMELS Capital         directives associated
                                           adequacy and Management administration ratings     with critically
                                           downgraded from 4 to 5                             undercapitalized
                                                                                              status
 8/8/2008a          NA                     Limited exam: Downgraded CAMELS Liquidity rating from 2 to 5
  8/8/2008

  9/23/2008a         NA                      Limited exam: Downgraded CAMELS Asset quality rating from 3 to 4
  9/23/2008
Source: OTS ROEs and notices.
a
 These limited examinations were part of the ongoing full-scope examination that was begun on June 30, 2008, and completed on
December 5, 2008.


                           OTS’s full-scope examination started on June 30, 2008, found a
                           multitude of problems related to ASB’s performance and OTS
                           examiners concluded that ASB was in an unsafe and unsound
                           condition. OTS examiners attempted to address these problems with
                           the use of a C&D order, MRBAs, and corrective actions. While
                           appropriate, these actions proved to be unsuccessful. Before this
                           examination, OTS’s supervision did not adequately address ASB’s
                           problems early enough to prevent ASB’s failure.




                           Material Loss Review of American Sterling Bank (OIG-10-011)                                 Page 14
Significant Areas of Supervisory Weaknesses Prior to 2008

ASB Was Not Required to Scale Back Its Mortgage Banking Operation

OTS did not require ASB to scale back its mortgage banking operation
despite high losses and high staff turnover at the thrift. As mentioned
above, ASB sustained losses related to mortgage banking as early as
2005 and continued to sustain losses in subsequent years. ASB also
experienced significant staff turnover that disrupted operations.
However, instead of decreasing its dependence on mortgage banking,
ASB increased its loan production by expanding into new retail and
wholesale mortgage markets, as demonstrated by the thrift’s 2006
acquisition of USB’s mortgage banking division. During 2007 through
2008, ASB’s annual mortgage production was approximately $1.6
billion compared to $582 million in 2006. However, ASB’s mortgage
business was consistently unprofitable in its later years largely
because of the high expenses associated with this line of ASB’s
business.

In its ROEs for 2006 and 2007, OTS did not raise any specific
concerns with the scale of ASB’s mortgage operations despite losses,
high expenses related to mortgage production, high staff turnover, and
the departure of senior thrift management. In addition, our review of
OTS’s examination workpapers found no indication that OTS
challenged ASB’s monthly loan production goals. For example, an
examination workpaper from OTS’s 2007 examination of ASB states
that ASB estimated it needed $150 million in loan sales per month to
break even. However, we did not find indications that OTS sufficiently
scrutinized this estimate or discussed alternative strategies to mitigate
ASB’s losses should the break-even production goal not be met. When
asked whether OTS should have required ASB to decrease its
mortgage production due to the thrift’s numerous problems, OTS’s
examination staff said that it should have if drastic problems had
existed.

It wasn’t until June 13, 2008, that OTS took forceful action regarding
ASB’s mortgage banking operations when it issued a supervisory
directive that required ASB to maintain a minimum core capital ratio of
7.5 percent. On August 20, 2008, OTS issued a C&D order that
required ASB to limit its asset growth and not to expand its product
lines or business activities without a written nonobjection notice from


Material Loss Review of American Sterling Bank (OIG-10-011)    Page 15
                        OTS. ASB’s financial condition had by then severely deteriorated and
                        its capital levels had fallen to the PCA category of critically
                        undercapitalized. As discussed earlier, ASB senior management
                        engaged in a litany of improper accounting transactions that masked
                        the thrift’s deteriorating financial condition. The thrift’s inaccurate
                        financial reporting delayed OTS from taking required PCA as the
                        thrift’s capital was depleted.

                        ASB’s Recourse Exposure Was Not Addressed

                        OTS did not enforce regulatory requirements or follow internal
                        guidance related to the capital treatment of loans with recourse
                        provisions sold by ASB. Federal banking regulations 11 and OTS
                        guidance 12 require institutions to hold capital on a recourse exposure
                        for the full amount of the transferred assets, as if the assets were still
                        on the balance sheet. OTS guidance provides an exception to this
                        requirement for qualifying one-to-four-family residential loans for
                        which the sale contract allows only a 120-day or less return period.

                        As indicated by Figure 2, ASB sold over $3.8 billion in loans with
                        recourse exposure from the first quarter of 2006 through the fourth
                        quarter of 2008. However, ASB did not hold any additional capital to
                        account for this recourse exposure, as required, and included only the
                        assets reported on its balance sheet in its risk-based capital
                        calculations.

                        The 2007 ROE stated that ASB’s risk-based capital ratios did not
                        reflect the risk weighting of sold loans with recourse provisions. In
                        addition, the examiners’ workpapers for the examination indicated that
                        as of March 31, 2007, ASB’s risk-weighted assets needed to be
                        increased by over $266 million. This would have meant that ASB’s
                        capital amounts should have also been increased as of March 31,
                        2007. However, OTS did not require ASB to increase its capital and
                        instead allowed the thrift to continue holding capital for only the
                        assets reported on its balance sheet. When we asked why ASB was
                        not required to raise its capital levels, OTS’s examination staff said
                        that guidance on this matter was unclear. In addition, because of
                        ASB’s previous history of low levels of losses on loans sold with
                        recourse, OTS’s examination staff did not believe that they would

11
     12 CFR 567.
12
     OTS Examination Handbook, section 221, app. B.


                        Material Loss Review of American Sterling Bank (OIG-10-011)     Page 16
have been justified in requiring ASB to raise its capital levels. They
also said that they had sought guidance on the issue from OTS
headquarters but did not receive a response that was sufficient to
resolve the matter. Specifically, the guidance sought related to unique
terms in some of ASB’s loan sale agreements that may have reduced
ASB’s recourse exposure. We believe that federal regulation and OTS
guidance clearly state that thrifts are to hold additional capital to
mitigate recourse exposure on sold loans and the OTS examination
staff should have more aggressively pursued this issue.

As noted earlier, ASB experienced severe losses from its mortgage
banking operation and by 2008 began receiving demands by investors
to repurchase a significant number of loans that it had sold. Because
of its inadequate capital levels, ASB could not absorb the losses it
incurred on its mortgage banking operation or the repurchase claims
on loans it had sold. According to a senior OTS headquarters official,
if OTS had required ASB to hold more capital to cover the recourse
exposure, the thrift would have absorbed more of the losses, and
losses to the deposit insurance fund would have likely been less.

ASC’s Contribution of a Participation Loan to ASB Was Not
Adequately Reviewed

As discussed above, in March 2007 ASC provided a noncash capital
contribution to ASB in the form of a $2 million loan participation on a
$3 million loan to a state political party. On April 10, 2007, ASB
forwarded to an OTS Western Region field manager a letter detailing
its 2007 revenue projections, asset growth, and capital plan
supporting the asset growth. The letter specified that ASC had
contributed a $2 million participation in a loan due to be paid in June
2007. OTS’s 2007 ROE stated that ASC had provided ASB a
$2 million capital injection to help the thrift qualify as well-capitalized.
The 2007 ROE and the examination workpapers, however, did not
include any evidence that the loan participation asset supporting the
capital contribution was scrutinized. OTS’s Western Region staff
acknowledged that the loan participation was not adequately reviewed
at the time.

In the June 2008 examination, OTS examiners determined that the
loan did not meet the requirements set forth in federal banking




Material Loss Review of American Sterling Bank (OIG-10-011)       Page 17
                       regulations to be considered a permissible loan to a political party.13
                       Because of the improper classification of the capital contribution as a
                       loan, ASB’s capital was overstated by $2 million from the time the
                       capital contribution was recorded in March 2007 until OTS required
                       that the transaction be reversed in 2008. Therefore, ASB improperly
                       reported itself as well-capitalized instead of adequately capitalized,
                       allowing it to continue obtaining brokered deposits contrary to federal
                       banking regulations. 14

                       OTS’s Internal Failed Bank Review Identified Areas Needing
                       Improvement

                       In accordance with its policy, OTS performed an internal failed bank
                       review to determine the causes of ASB’s failure, evaluate the
                       supervision exercised by OTS, and provide recommendations based on
                       the findings of the review. 15 The OTS review, completed in August
                       2009, determined that ASB’s failure resulted from (1) losses related to
                       the thrift’s significant mortgage banking operation and an excessive
                       concentration in HFS loans and (2) inadequate management and
                       insufficient independence from ASC operations.

                       The review identified the following two areas where supervision
                       should have been more effective:

                       1. OTS should have taken increasingly aggressive steps with ASB’s
                          management and board to scale back or at least minimize the
                          scope of the mortgage operation.


13
   According to 11 CFR § 100.82, a loan of money to a political committee or a candidate by a federally
chartered depository institution is not a contribution by the lending institution if the loan is made in
accordance with applicable banking laws and regulations and in the ordinary course of business. A loan is
deemed made in the ordinary course of business if it (1) bears the usual and customary interest rate of the
lending institution for the category of loan involved, (2) is made on a basis that assures repayment, (3) is
evidenced by a written instrument, and (4) is subject to a due date or amortization schedule.
14
   12 CFR § 337.6 states that an adequately capitalized insured depository institution may not accept,
renew, or roll over any brokered deposit unless it has applied for and been granted a waiver of this
prohibition by FDIC.
15
   OTS policy requires that an internal assessment be conducted when a thrift fails. That assessment,
referred to as an internal failed bank review, is performed by staff independent of the region responsible for
supervisory oversight of the failed thrift. The report is reviewed and signed by OTS’s deputy director of
examinations, supervision, and consumer protection. OTS’s Northeast Region initiated an internal review of
ASB. The scope of the review focused primarily on OTS’s supervision from January 1, 2006, to
receivership of ASB on April 17, 2009.


                       Material Loss Review of American Sterling Bank (OIG-10-011)                 Page 18
                         2. OTS should have placed more emphasis on ensuring that
                            supervision and administration of the thrift by its board and
                            management were not subject to the dominating adverse influence
                            of the CEO and ASC management.

                         The internal review also made two recommendations to OTS:

                         1. OTS should conduct periodic meetings or telephone presentations
                            with thrift boards of directors following examinations, even when
                            the CAMELS composite rating assigned is 1 or 2.
                         2. OTS examiners should generally perform on-site examinations at
                            the principal locations of a thrift’s higher-risk lines of business. For
                            institutions with multiple higher-risk locations, on-site examinations
                            should be conducted at these locations on a rotational basis, based
                            on current risk factors.

                         The internal review did not provide a recommendation to address the
                         concentration issues noted. According to the report, OTS’s CEO letter
                         311, Risk Management: Asset and Liability Concentrations, adequately
                         addressed the concentration issues. 16

                         Based on our review of the examination records and reports and
                         interviews with OTS staff, we affirm OTS’s internal findings and the
                         need for corrective action. In addition, we determined that OTS should
                         have enforced the federal regulatory requirement and followed its own
                         guidance related to ASB’s recourse exposure and conducted a more
                         thorough review during its 2007 examination of ASC’s capital
                         contributions.

                         OTS’s Use of Prompt Corrective Action

                         The purpose of PCA is to resolve the problems of insured depository
                         institutions at the least possible long-term loss to FDIC’s deposit
                         insurance fund. PCA requires federal banking agencies to take certain
                         actions when an institution’s capital drops to certain levels. It also
                         gives regulators flexibility to discipline institutions based on criteria
                         other than capital levels to help reduce deposit insurance losses
                         caused by unsafe and unsound practices.



16
     Issued on July 9, 2009


                         Material Loss Review of American Sterling Bank (OIG-10-011)      Page 19
Once the true financial condition of ASB was known in 2008, OTS
implemented PCA as described below. We concluded that the actions
taken were timely and in accordance with PCA requirements.

    •   During the June 2008 examination, OTS examiners required
        ASB to reverse certain improper accounting transactions. The
        reversal of these transactions resulted in ASB becoming
        undercapitalized. On July 29, 2008, OTS issued a supervisory
        directive that served as a PCA notice to (1) notify ASB of its
        undercapitalized status, (2) deem ASB as being in troubled
        condition, and (3) downgrade ASB’s CAMELS composite rating
        to 4. In accordance with PCA, the notice required ASB to file a
        capital restoration plan (CRP) no later than September 12,
        2008. The notice also required that ASB abide by the
        mandatory PCA restrictions, which included restrictions on
        capital distributions, acquiring interest in any company or
        insured depository institution, and establishing any additional
        branch office. The PCA notice further required that ASB notify
        OTS of any changes in directors or senior executive officers and
        of any transaction with affiliates exceeding $20,000.

    •   As the result of the continuing examination started by OTS in
        June 2008, OTS notified ASB on August 1, 2008, that it had
        fallen into the critically undercapitalized PCA capital category
        and that its CAMELS composite, capital adequacy, and
        management ratings had been downgraded to 5. The August 1
        notice required ASB to file a CRP by August 11, 2008, a month
        sooner than the July 29 supervisory directive, and to abide by
        the mandatory PCA restrictions set forth in the supervisory
        directive.

    •   On October 10, 2008, OTS issued a supervisory directive
        upgrading ASB to significantly undercapitalized after the thrift
        received a $7.5 million capital contribution from ASC. The PCA
        notice required that ASB abide by the sanctions applicable to
        critically undercapitalized institutions.

    •   On December 31, 2008, OTS notified ASB that the CRP it had
        submitted was not acceptable and issued a notice of intent to
        issue a PCA directive.




Material Loss Review of American Sterling Bank (OIG-10-011)    Page 20
    •   On January 14, 2009, OTS notified ASB that it had fallen into
        the critically undercapitalized PCA capital category. The PCA
        notice required ASB to file another CRP by January 19, 2009. It
        also required that ASB abide by the mandatory PCA restrictions,
        which included restrictions on capital distributions, acquiring
        interest in any company or insured depository institution, and
        establishing any additional branch office. The PCA notice also
        required that ASB notify OTS of any changes in directors or
        senior executive officers and of any transaction with affiliates
        exceeding $5,000.

    •   OTS verbally waived ASB’s requirement to submit a CRP by
        January 19, 2009, due to a January 9, 2009, agreement
        between ASC and a potential acquirer to sell all ASB stock to
        the potential acquirer. On February 17, 2009 ASB submitted a
        CRP, which included that fact that ASC had entered into a
        stock purchase agreement with a potential acquirer.

On April 17, 2009, OTS rejected ASB’s CRP submitted to OTS on
February 17, 2009 because the plan did not provide a suitable means
of recapitalizing the thrift. According to OTS, it could not determine
whether the CRP was likely to succeed in restoring ASB’s capital level
to adequately capitalized since the CRP was based on a contingency
that was outside the control of ASB and the potential acquirer. Other
deficiencies that OTS noted included unrealistic projections of earnings
and capital ratios, and unacceptably high levels of loan production
volume. The thrift was closed the same day and placed into FDIC
receivership.

Recommendations

Our material loss review of ASB is the seventh such review we have
performed of failed OTS-regulated financial institutions during the
current financial crisis. Appendix 6 lists the prior completed material
loss reviews of OTS-regulated financial institutions and our associated
recommendations. OTS management agreed with the prior
recommendations and has taken or is taking corrective actions to
address them.

As a result of our material loss review of ASB, we recommend that
the Director of OTS do the following:


Material Loss Review of American Sterling Bank (OIG-10-011)   Page 21
1. Ensure that the recommendations from OTS’s internal review of
   the ASB failure are implemented and that the lessons learned from
   the review are taken into account going forward.

2. Remind supervisory and examination staff of the importance of
   requiring thrifts to hold capital, as required by federal banking
   regulations, to mitigate their recourse exposure on sold loans.

3. Remind supervisory and examination staff to properly scrutinize
   capital contributions made to thrifts, especially noncash capital
   contributions.

4. Ensure supervisory and examination staff take forceful action to
   mitigate losses whenever a thrift’s line of business incurs losses
   that threaten the viability of the institution.

Management Response

OTS concurred with our recommendations and agreed to implement
the recommended actions in a timely manner. OTS stated that it has
taken action pursuant to its internal failed bank review of ASB,
including issuing new internal guidelines in May 2009 for Enforcement
Review Committee meetings to ensure appropriate enforcement
action, and issuing a CEO memorandum in July 2009 to address asset
and liability concentrations and related risk management practices.

OIG Comment

We consider OTS’s planned actions to be responsive to our
recommendations. OTS will need to establish an estimated completion
date for completing its planned actions, and record that date in
JAMES.




Material Loss Review of American Sterling Bank (OIG-10-011)    Page 22
                                * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-0384 or J. Mathai, Audit Manager, at
(202) 927-0356. Major contributors to this report are listed in
appendix 8.




Jeffrey Dye
Audit Director




Material Loss Review of American Sterling Bank (OIG-10-011)   Page 23
                         Appendix 1
                         Objectives, Scope, and Methodology




                         Our objectives were to determine the causes of American Sterling
                         Bank’s (ASB) failure and assess the bank’s supervision by the
                         Office of Thrift Supervision (OTS). We conducted this material loss
                         review of ASB in response to our mandate under section 38(k) of
                         the Federal Deposit Insurance Act. 17 This section provides that if a
                         deposit insurance fund incurs a material loss with respect to an
                         insured depository institution, the inspector general for the
                         appropriate federal banking agency is to prepare a report to the
                         agency that

                         •    ascertains why the institution’s problems resulted in a material
                              loss to the insurance fund;
                         •    reviews the agency’s supervision of the institution, including its
                              implementation of the prompt corrective action provisions of
                              section 38; and
                         •    makes recommendations for preventing any such loss in the
                              future.

                         Section 38(k) defines a loss as material if it exceeds the greater of
                         $25 million or 2 percent of the institution’s total assets. The law
                         also requires the inspector general to complete the report within
                         6 months after it becomes apparent that a material loss has been
                         incurred.

                         We initiated a material loss review of ASB based on the loss
                         estimate by the Federal Deposit Insurance Corporation (FDIC). As
                         of October 31, 2009, FDIC estimated that ASB’s failure would cost
                         the deposit insurance fund $41.9 million. FDIC also estimated that
                         ASB’s failure resulted in a loss of $0.2 million to its Transaction
                         Account Guarantee Program.

                         To accomplish our review, we conducted fieldwork at OTS’s
                         headquarters in Washington, DC; it’s Western Region Office in
                         Irving, Texas; and ASB’s former headquarters in Sugar Creek,
                         Missouri. We also interviewed officials and examiners at FDIC’s
                         Division of Supervision and Consumer Protection in Kansas City,
                         Missouri, and personnel at FDIC’s Division of Resolutions and
                         Receivership in Dallas, Texas. We conducted our fieldwork from
                         April 2009 through September 2009.


17
     12 U.S.C. § 1831o (k).


                         Material Loss Review of American Sterling Bank (OIG-10-011)      Page 24
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OTS’s supervision of ASB, we
determined (1) when OTS first identified ASB’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OTS took to get the thrift to correct the
problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the time period covered by our audit
        would be September 2002 through American Sterling’s
        receivership on April 17, 2009. This period included three
        safety and soundness examinations before OTS identified
        ASB as a troubled institution and assigned it a composite
        CAMELS rating of 4.

    •   We reviewed OTS supervisory files and records for ASB from
        2002 through 2009. We analyzed examination reports,
        supporting workpapers, and related supervisory and
        enforcement correspondence. We performed these analyses
        to gain an understanding of the problems identified, the
        approach and methodology OTS used to assess the thrift’s
        condition, and the regulatory action OTS used to compel
        thrift management to address deficient conditions. We did
        not conduct an independent or separate detailed review of
        the external auditor’s work or associated workpapers other
        than those incidentally available through the supervisory
        files.

    •   We interviewed and discussed various aspects of the
        supervision of ASB with OTS officials, examiners, and
        attorneys to obtain their perspective on the thrift’s condition
        and the scope of the examinations. We also interviewed
        FDIC officials who were responsible for monitoring ASB for
        federal deposit insurance purposes.

    •   We interviewed FDIC Division of Resolutions and
        Receiverships personnel who were involved in the resolution




Material Loss Review of American Sterling Bank (OIG-10-011)      Page 25
Appendix 1
Objectives, Scope, and Methodology




        and receivership process, which was conducted before and
        after ASB’s closure and the appointment of a receiver.


    •   We selectively reviewed ASB documents that had been
        taken by FDIC and inventoried by FDIC Division of
        Resolutions and Receivership personnel. We identified from
        FDIC’s inventory list those documents for our review that
        were most likely to shed light on the reasons for the thrift’s
        failure and OTS’s supervision of the institution.

    •   We assessed OTS’s actions based on its internal guidance
        and the requirements of the Federal Deposit Insurance Act.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of American Sterling Bank (OIG-10-011)      Page 26
Appendix 2
Background




American Sterling History

American Sterling Bank (ASB) was established in 1907 as the Bank
of Levasy, a state-regulated commercial bank, in Levasy, Missouri.
The bank moved to Sugar Creek, Missouri, and changed its charter
to become a national bank in 1963 and was renamed Sugar Creek
National Bank. The bank’s name was changed in 1983 to Sterling
National Bank and again, in 1998, to American Sterling Bank. In
February 2001, ASB converted to a national thrift and became a
wholly owned subsidiary of American Sterling Corporation (ASC), a
California holding company formed in 1984. In addition to banking,
ASC’s primary operations were insurance underwriting and
insurance services.

ASB had its home office and two additional full-service offices in
the Kansas City, Missouri, metropolitan area. Two other branches
were located in Carefree, Arizona, and Foothill Ranch, California.
ASB’s business focused on retail banking, commercial banking, and
mortgage banking. Its mortgage banking operations, which had
been established in 1997, expanded in August 2006, when the
thrift acquired the mortgage banking division of Universal Savings
Bank (USB) of Milwaukee, Wisconsin. The acquisition included nine
loan-production offices, in Arizona, California, Colorado, Missouri,
Texas, and Wisconsin.

ASB generated profits from 2001, when the Office of Thrift
Supervision (OTS) started its supervision of ASB, through the third
quarter of 2005. From the fourth quarter of 2005 through the
fourth quarter of 2007, however, ASB reported consecutive
quarterly losses. These losses resulted primarily from high costs
related to its mortgage banking operations. The losses accelerated
with ASB’s August 2006 acquisition of USB’s mortgage banking
division. ASB incurred annual net losses of $1.7 million in 2006,
$3.7 million in 2007, and $40.9 million in 2008.

Beginning in 2007 and into 2008, ASB also recorded improper
accounting entries that distorted its capital and earnings. OTS
examiners questioned these entries during their June 2008
examination of ASB. The thrift was required to reverse the invalid
capital entries, which eventually rendered ASB critically
undercapitalized.


Material Loss Review of American Sterling Bank (OIG-10-011)   Page 27
Appendix 2
Background




On January 9, 2009, ASC entered into an agreement for the sale
of ASB stock to a potential acquirer. The agreement was
contingent upon the potential acquirer’s obtaining approval to
receive funds from the Troubled Asset Relief Program. On January
15, 2009, OTS approved the potential acquirer’s holding company
application related to the acquisition of ASB. However the potential
acquirer was unable to complete the acquisition of ASB and on
April 17, 2009, OTS closed ASB and appointed FDIC as receiver.
At the time of closing, ASB had total assets of $174.4 million.

Appendix 4 contains a chronology of significant events regarding
ASB.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations including safety and
soundness, compliance, and information technology.

OTS must conduct full-scope examinations of insured thrifts either
once every 12 months or once every 18 months. During a full-
scope examination, examiners conduct an onsite examination and
rate all CAMELS components. OTS then assigns each thrift a
CAMELS composite rating based on its assessment of the overall
condition and level of supervisory concern.

OTS uses the 12-month cycle until a thrift’s management has
demonstrated its ability to operate the institution in a safe and
sound manner and has satisfied all conditions imposed at the time
of approval of its charter. The 18-month examination cycle applies
to insured thrifts that have total assets of $500 million or less that

• received a CAMELS composite rating of 1 or 2 and a
  Compliance component rating of 1 or 2 for their most recent
  examination,
• received a CAMELS Management component rating of 1 or 2
  for their most recent examination;
• are well-capitalized,
• are not currently subject to a formal enforcement proceeding or
  order by OTS or FDIC, and




Material Loss Review of American Sterling Bank (OIG-10-011)     Page 28
Appendix 2
Background




• have not undergone a change in control during the 12-month
  period since completion of their last full-scope examination.

Enforcement Actions Available to OTS

OTS performs various examinations of thrifts that result in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions

When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board of directors or
management to ensure that it will correct identified problems and
weaknesses, OTS may use informal enforcement actions. OTS
commonly uses informal actions for problems in well- or
adequately-capitalized thrifts and for thrifts with a composite rating
of 1, 2, or 3.

Informal actions notify a thrift’s board and management that OTS
has identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions

If informal tools do not resolve a problem that has been identified,
OTS is to use formal enforcement tools.




Material Loss Review of American Sterling Bank (OIG-10-011)    Page 29
Appendix 2
Background




Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a thrift has
significant problems, especially when there is a threat of harm to
the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems.

OTS can assess civil money penalties against thrifts and individuals
for noncompliance with a formal agreement or final orders. OTS
can also request a federal court to require the thrift to comply with
an order. Unlike informal actions, formal enforcement actions are
public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines

Considerations for determining whether to use informal action or
formal action include the following:

•   the extent of actual or potential damage, harm, or loss to the
    thrift because of the action or inaction;

•   whether the thrift has repeated the illegal action or unsafe or
    unsound practice;

•   the likelihood that the conduct may occur again;

•   the thrift’s record for taking corrective action in the past;

•   the capability, cooperation, integrity, and commitment of the
    thrift’s management, board of directors, and ownership to
    correct identified problems;

•   the effect of the illegal, unsafe, or unsound conduct on other
    financial institutions, depositors, or the public;

•   the examination rating of the thrift;



Material Loss Review of American Sterling Bank (OIG-10-011)         Page 30
Appendix 2
Background




•   whether the thrift’s condition is improving or deteriorating; and

•   the presence of unique circumstances.




Material Loss Review of American Sterling Bank (OIG-10-011)     Page 31
                    Appendix 3
                    Glossary of Terms




Allowance for loan and              A valuation reserve established and maintained by
lease losses (ALLL)                 charges against the financial institution’s operating
                                    income. As a valuation reserve, it is an estimate of
                                    uncollectible amounts that is used to reduce the book
                                    value of loans and leases to the amount that is
                                    expected to be collected. These valuation allowances
                                    are established to absorb unidentified losses inherent
                                    in the institution’s overall loan and lease portfolio.

Alt-A loan                          A mortgage loan that typically does not involve
                                    income verification or documentation of income,
                                    assets, or employment. Instead, loan approval is
                                    based primarily on the applicant’s credit score.

Board resolution                    A document designed to address one or more specific
                                    concerns identified by the Office of Thrift Supervision
                                    (OTS) and adopted by a thrift’s board of directors.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: Capital adequacy, Asset quality,
                                    Management administration, Earnings, Liquidity, and
                                    Sensitivity to market risk. Numerical values range from
                                    1 to 5, with 1 being the best rating and 5 being the
                                    worst. OTS uses the CAMELS rating system to
                                    evaluate a thrift’s overall condition and performance
                                    by assessing each of the six rating components and
                                    assigning numerical values. OTS then assigns each
                                    thrift a composite rating based on its assessment of
                                    the overall condition and level of supervisory concern.


Capital restoration plan            A plan required under the prompt corrective action
                                    (PCA) requirements of the Federal Deposit Insurance
                                    Act to be submitted to the appropriate federal banking
                                    agency by any undercapitalized insured depository
                                    institution. A capital restoration plan specifies the
                                    steps the institution is to take to become adequately
                                    capitalized, the levels of capital to be attained during
                                    each year in which the plan is in effect, how the
                                    institution is to comply with the restrictions or
                                    requirements then in effect, the types and levels of


                    Material Loss Review of American Sterling Bank (OIG-10-011)        Page 32
                   Appendix 3
                   Glossary of Terms




                                   activities in which the institution is to engage, and any
                                   other information that the federal banking agency may
                                   require.

Cease and desist (C&D) order       A type of formal enforcement action. A C&D order
                                   issued by OTS normally requires the thrift to correct a
                                   violation of a law or regulation, or an unsafe or
                                   unsound practice. OTS may issue a C&D order in
                                   response to violations of federal banking, securities, or
                                   other laws by thrifts or individuals, or if it believes
                                   that an unsafe and unsound practice or violation is
                                   about to occur.

Classified asset                   A loan or other asset that in the opinion of examiners
                                   is at risk to some degree. Such assets fail to meet
                                   acceptable credit standards. The totals for classified
                                   loans are reported separately in thrift financial reports.
                                   Examiners have adopted the following uniform
                                   guidelines for listing poorly performing loans: (1) loss,
                                   or complete write-off; (2) doubtful, where repayment
                                   in full is questionable; (3) substandard, where some
                                   loss is probable unless corrective actions are taken;
                                   and (4) special mention, indicating potential problems
                                   such as missing documentation or insufficient
                                   collateral. Supervisory agencies require that lenders
                                   write down loans classified as doubtful to 50 percent
                                   of the original book value and loans classified as loss
                                   by 100 percent in calculating the net capital available
                                   for making new loans.

Compliance                         The part of a financial institution examination that
                                   includes an assessment of how well the institution
                                   manages compliance with consumer protection and
                                   public interest laws and regulations, including the
                                   Bank Secrecy Act.

Concentration                      As defined by OTS, a group of similar types of assets
                                   or liabilities that, when aggregated, exceed 25 percent
                                   of a thrift’s core capital plus ALLL. Concentrations
                                   may include direct, indirect, and contingent obligations
                                   or large purchases of loans from a single counterparty.


                   Material Loss Review of American Sterling Bank (OIG-10-011)         Page 33
                   Appendix 3
                   Glossary of Terms




                                   Some higher-risk asset or liability types (e.g., residual
                                   assets) may warrant monitoring as concentrations
                                   even if they do not exceed 25 percent of core capital
                                   plus ALLL.

Core capital                       Tier 1 capital consisting of primarily of stockholder’s
                                   equity.

Early payment default              Status of mortgages that become 90 or more days
                                   delinquent or go into default during their first year.

Information technology             An examination that includes review and evaluation
examination                        of the overall management of information systems
                                   used by a thrift and of the effectiveness of the internal
                                   audit and security functions for those systems.

Matter requiring                   A practice noted during an OTS examination of
board attention                    a thrift that deviates from sound governance, internal
                                   control, and risk management principles. The matter,
                                   if not addressed, may adversely affect the thrift’s
                                   earnings or capital, risk profile, or reputation or may
                                   result in substantive noncompliance with laws or
                                   regulations, internal policies or processes, OTS
                                   supervisory guidance, or conditions imposed in writing
                                   in connection with the approval of any application or
                                   other request by the institution. Although matters
                                   requiring board attention are not formal enforcement
                                   actions, OTS requires that thrifts address them. A
                                   thrift’s failure to do so may result in a formal
                                   enforcement action.

Net debit cap                      The maximum dollar amount of uncollateralized
                                   daylight overdrafts that an institution may incur in its
                                   Federal Reserve account. A daylight overdraft occurs
                                   when an institution transfers funds in excess of its
                                   reserve account balance at a Federal Reserve bank.
                                   Daylight overdrafts must be covered by the end of
                                   each business day. An institution with a net debit cap
                                   of zero may not incur daylight overdrafts.




                   Material Loss Review of American Sterling Bank (OIG-10-011)        Page 34
                     Appendix 3
                     Glossary of Terms




Nonperforming loan                   A loan that is not earning income or payment of
                                     principal, for which interest is no longer anticipated,
                                     and for which payments are 90 days or more
                                     delinquent.

Participation loan                   A loan made by more than one lender and serviced by
                                     one of the participants. Participation loans make it
                                     possible for large borrowers to obtain bank financing
                                     when the amount borrowed exceeds the legal lending
                                     limit of an individual bank.

Prompt corrective action             A framework of supervisory actions, set forth in
                                     12 U.S.C. § 1831o, for insured depository institutions
                                     that are not adequately capitalized. It was intended to
                                     ensure that action is taken when an institution
                                     becomes financially troubled in order to prevent a
                                     failure or minimize resulting losses. These actions
                                     become increasingly severe as a thrift falls into lower
                                     capital categories. The capital categories are well-
                                     capitalized, adequately capitalized, undercapitalized,
                                     significantly undercapitalized, and critically
                                     undercapitalized. The prompt corrective action
                                     minimum requirements are as follows:

                                                            Tier 1/
                                       Total                Risk-                  Tier 1/
               Capital Category        Risk-Based           Based                  Leverage
                                        10% or          and 6% or          and 5% or greater
               Well-capitalizeda
                                        greater               greater
               Adequately               8% or           and 4% or          and 4% or greater
               capitalized              greater               greater            (3% for 1-rated)
                                        Less            or    Less         or    Less than 4% (except
               Undercapitalized
                                        than 8%               than 4%            for 1-rated)
               Significantly            Less            or    Less         or    Less than 3%
               undercapitalized         than 6%               than 3%
                                        Has a ratio of tangible equity to total assets that is equal
               Critically
                                        to or less than 2 percent. Tangible equity is defined in
               undercapitalized
                                        12 C.F.R. § 565.2(f).
               a
                 To be well-capitalized, a thrift also cannot be subject to a higher capital requirement
               imposed by OTS.




                     Material Loss Review of American Sterling Bank (OIG-10-011)                  Page 35
                     Appendix 3
                     Glossary of Terms




Recourse                             With respect to financial assets such as loans, the
                                     legal ability of the purchaser an asset to make a claim
                                     against the seller of the asset if the asset fails to pay.
                                     For example, a loan sold with a recourse provision
                                     would allow the loan’s purchaser to make a claim
                                     against the loan’s seller in the event of debtor default.

Risk-based capital                   A thrift’s risk-based capital is the sum of its Tier 1
                                     capital plus Tier 2 capital (to the extent that Tier 2
                                     capital does not exceed 100 percent of Tier 1 capital).
                                     This amount is then reduced by (1) reciprocal holdings
                                     of the capital instruments of another depository
                                     institution, (2) equity investments, and (3) low-level
                                     recourse exposures and residual interests that the
                                     thrift chooses to deduct using the simplified/direct
                                     deduction method, excluding the credit-enhancing
                                     interest-only strips already deducted from Tier 1
                                     capital.

Risk-weighted asset                  An asset rated by risk to establish the minimum
                                     amount of capital that is required within institutions.
                                     To weight assets by risk, an institution must assess
                                     the risk associated with the loans in its portfolio.
                                     Institutions whose portfolios hold more risk require
                                     more capital.

Safety and soundness                 The part of an examination that includes a review and
                                     evaluation of each of the component CAMELS ratings
                                     (see explanation of CAMELS, above).

Supervisory directive                An informal enforcement action by OTS that is
                                     directed to a thrift to cease an activity or take an
                                     affirmative action to remedy or prevent an unsafe or
                                     unsound practice.

Thrift financial report              A financial report that thrifts are required to file
                                     quarterly with OTS. The report includes detailed
                                     information about the institution's operations and
                                     financial condition and must be prepared in
                                     accordance with generally accepted accounting




                     Material Loss Review of American Sterling Bank (OIG-10-011)         Page 36
                    Appendix 3
                    Glossary of Terms




                                    principles. The thrift financial report is similar to the
                                    call report required of commercial banks.

Tier 1 (core) capital               An amount consisting of common shareholder’s equity
                                    (common stock, surplus, and retained earnings),
                                    noncumulative perpetual preferred stock, and minority
                                    interests in the equity accounts of consolidated
                                    subsidiaries. In accordance with the Financial
                                    Institutions Reform, Recovery, and Enforcement Act
                                    of 1989, OTS requires that Tier 1 capital represent 4
                                    percent of total assets, or 3 percent for thrifts with a
                                    CAMELS composite rating of 1, adjusted for
                                    investment in subsidiaries, gains and losses on
                                    available-for-sale securities, and certain hedges.

Tier 2 (supplementary) capital      An amount that includes (1) permanent capital
                                    instruments, such as mutual capital certificates and
                                    non-withdrawable accounts not counted for Tier 1
                                    capital, cumulative perpetual preferred stock, and
                                    qualifying subordinated debt; (2) maturing capital
                                    instruments (e.g., nonperpetual preferred stock); (3)
                                    ALLL up to 1.25 percent of risk-weighted assets; and
                                    (4) up to 45 percent of unrealized gains, net of
                                    unrealized losses on available-for-sale equity securities
                                    with readily determinable fair values. In addition, Tier
                                    2 capital may not exceed Tier 1 capital.

Transaction Account                 Component of FDIC’s Temporary Liquidity Guarantee
Guarantee Program                    Program. FDIC established the Temporary Liquidity
                                    Guarantee Program in October 2008 as part of a
                                    coordinated effort by the FDIC, the Department of the
                                    Treasury, and the Federal Reserve to address
                                    unprecedented disruptions in credit markets and the
                                    resultant inability of financial institutions to fund
                                    themselves and make loans to creditworthy
                                    borrowers. The Temporary Liquidity Guarantee
                                    Program is composed of two distinct components:
                                    (1) the Debt Guarantee Program and (2) the
                                    Transaction Account Guarantee Program. Pursuant to
                                    the Debt Guarantee Program, FDIC guarantees certain
                                    senior unsecured debt issued by participating entities.


                    Material Loss Review of American Sterling Bank (OIG-10-011)          Page 37
                     Appendix 3
                     Glossary of Terms




                                     Pursuant to the Transaction Account Guarantee
                                     Program, FDIC guarantees all funds held in qualifying
                                     noninterest-bearing transaction accounts at
                                     participating insured depositary institutions. Originally
                                     scheduled to expire on December 31, 2009, FDIC
                                     extended the Transaction Account Guarantee Program
                                     in August 2009 until June 30, 2010. Participating
                                     insured depositary institutions pay an assessment fee
                                     for the additional FDIC guarantee.

Troubled condition                   A condition in which a thrift meets any of the
                                     following criteria:
                                     • OTS notifies it in writing that it has been assigned
                                         a composite CAMELS rating of 4 or 5.
                                     • It is subject to a capital directive, a C&D order, a
                                         consent order, a formal written agreement, or a
                                         prompt corrective action directive relating to its
                                         safety and soundness or financial viability.
                                     • OTS informs it in writing of its troubled condition
                                         based on information available to OTS. Such
                                         information may include current financial
                                         statements and reports of examination.




                     Material Loss Review of American Sterling Bank (OIG-10-011)        Page 38
                  Appendix 4
                  Chronology of Significant Events




The following chronology describes significant events in American Sterling Bank’s
(ASB) history, including examinations conducted and enforcement actions taken by the
Office of Thrift Supervision (OTS).

2/1/1907         The Bank of Levasy, located in Levasy, Missouri, is chartered as a
                 state bank.

12/31/1959       The Bank of Levasy is established as a nonmember bank with FDIC.

10/7/1963        The Bank of Levasy moves to Sugar Creek Missouri, is renamed
                 Sugar Creek National Bank, and becomes a national bank.

10/19/1983       Sugar Creek National Bank is renamed Sterling National Bank.

12/1/1998        Sterling National Bank is renamed American Sterling Bank.

1/8/1999         American Sterling Corporation (ASC) files an application to become
                 a savings and loan holding company. American Sterling Bank (ASB)
                 files an application to convert from a national bank to an OTS-
                 regulated savings bank.

12/6/1999        OTS approves permission for ASB to convert from a national bank
                 to a federal savings bank. In addition, ASB becomes a wholly
                 owned subsidiary of ASC.

2/28/2001        OTS regulation of ASB and ASC begins.

7/30/2001        OTS begins a safety and soundness examination of ASB, which is
                 completed on September 9, 2001. OTS determines the thrift to be
                 financially sound but finds numerous weaknesses in records,
                 systems, and controls. The board of directors is deemed less than
                 fully effective. The CAMELS composite and component ratings are
                 2/223222.

11/14/2001       OTS begins a field visit of ASB to address concerns from the 2001
                 safety and soundness exam. OTS concludes that there are
                 improvements in ASB's internal audit and investment policies, and
                 that management is making satisfactory progress in addressing
                 information technology concerns.




                  Material Loss Review of American Sterling Bank (OIG-10-011)   Page 39
             Appendix 4
             Chronology of Significant Events




11/20/2002   OTS begins a safety and soundness examination of ASB, which is
             completed on January 1, 2003. OTS determines the thrift to be
             fundamentally sound. The CAMELS composite and component
             ratings are 2/223222.

12/31/2002   ASB reports net income of $1.4 million and paid $1.0 million in
             dividends to ASC.

12/31/2003   ASB reports net income of $4.2 million and paid $2.0 million in
             dividends to ASC.

3/29/2004    OTS begins a safety and soundness examination of ASB, which is
             completed on May 11, 2004. OTS deems the thrift fundamentally
             sound, but asks that management classify the Millennium Gate
             Foundation loans as a loss. The CAMELS composite and component
             ratings are 2/222222.

12/31/2004   ASB reports net earnings of $3.5 million and paid dividends of $6.3
             million to ASC.

12/31/2005   ASB reports net earnings of $1.1 million and paid dividends of $2.0
             million to ASC.

1/3/2006     OTS begins a safety and soundness examination of ASB, which is
             completed on March 9, 2006. OTS deems the thrift fundamentally
             sound but notes that ASB’s loan sales to the secondary market
             have slowed. The CAMELS composite and component ratings are
             2/222222.

8/1/2006     ASB acquires the mortgage banking division of Universal Savings
             Bank, Milwaukee, Wisconsin. The acquisition includes nine loan
             production offices.

11/15/2006   The board of directors votes to terminate the president of ASB. An
             executive team comprising the chief executive officer (CEO), vice
             chairman, and executive vice president assumes the president’s
             duties. The vice chairman is later appointed acting president.

1/1/2007     ASB's board formally adopts Statement of Financial Accounting
             Standard No. 159 to carry the thrift's mortgage pipeline at fair



             Material Loss Review of American Sterling Bank (OIG-10-011)   Page 40
             Appendix 4
             Chronology of Significant Events




             value.

3/12/2007    ASB receives notification from Federal Deposit Insurance
             Corporation (FDIC) that as of December 31, 2007, the thrift’s
             capital category had fallen from well-capitalized to adequately
             capitalized.

3/31/2007    ASC provides ASB a $2 million noncash capital injection to help the
             thrift qualify as well-capitalized. ASC also purchases a problem loan
             from ASB, paying the entire $400,000 balance, which the thrift had
             previously charged off. ASB’s capital category returns to well-
             capitalized.

4/9/2007     OTS begins a safety and soundness examination of ASB, which is
             completed on July 23, 2007. Since the previous OTS examination,
             the thrift has had six consecutive quarters of net losses and
             experienced major changes in senior management and turnover of
             key personnel. The CAMELS composite and component ratings are
             3/223322.

April 2007   ASB’s vice president/compliance officer resigns.

4/10/2007    ASB provides OTS an earnings and capital plan. It indicates the
             intent of ASB's management and ASC’s owners to take appropriate
             actions to ensure that the thrift remains well-capitalized at all times.

4/25/2007    ASC's board of directors passes a resolution confirming ASC's
             commitment to ensure that ASB remains well-capitalized.

5/25/2007    ASB’s controller resigns, and ASB’s treasurer is designated to
             perform the controller's accounting duties.

6/27/2007    OTS conducts a limited examination to downgrade ASB’s CAMELS
             composite rating from 2 to 3.

9/25/2007    The board of directors approves a motion to create a new position
             of co-CEO and to appoint two people to that position. The positions
             are to become effective on September 30, 2007.

12/31/2007   ASB incurs a loss of $3.7 million for 2007.



             Material Loss Review of American Sterling Bank (OIG-10-011)       Page 41
             Appendix 4
             Chronology of Significant Events




12/31/2007   ASB enters into a lender's representation and warranty master
             policy with American Sterling Insurance Corporation (ASIC) to defer
             the impact of losses at the thrift over a 24-month period resulting
             from mortgage loan representations and warranties.

4/9/2008     OTS downgrades ASB’s CAMELS asset quality component rating
             from 2 to 3 due to substantial increases in nonperforming and
             classified assets.

6/4/2008     Countrywide Home Loans submits to ASB a written demand letter
             for ASB's repurchase of approximately 124 loans due to early
             payment default. The aggregate amount of the 124 loans is $27.5
             million.

6/13/2008    OTS issues a supervisory directive to the ASB board requiring ASB
             to maintain a minimum core capital ratio of 7.5 percent, effective
             immediately.

6/30/2008    OTS begins a safety and soundness examination of ASB, which is
             completed on December 5, 2008. OTS determines that the thrift is
             in an unsafe and unsound condition, the performance of the
             institution is critically deficient, and there are inadequate risk
             management practices relative to the complexity and risk of
             operations. The thrift receives final CAMELS composite and
             component ratings of 5/545544. Throughout the examination, OTS
             conducts limited of examinations to downgrade ASB’s composite
             and component ratings.

7/14/2008    ASB violates OTS’s Supervisory Notice 08-01 by not submitting its
             2007 audit report within 90 days of its fiscal year end.

7/15/2008    In response to an ASB co-CEO’s inquiry about submitting real estate
             as a capital injection, OTS informs the co-CEO that it will allow only
             cash or cash equivalents contributed from the holding company to
             be included in ASB's capital.

7/21/2008    ASB notifies OTS of its various capital-raising initiatives such as the
             holding company contributing capital and sale of property held by
             the holding company.



             Material Loss Review of American Sterling Bank (OIG-10-011)      Page 42
            Appendix 4
            Chronology of Significant Events




7/29/2008   OTS conducts a limited examination to downgrade ASB’s CAMELS
            composite rating from 3 to 4 and to downgrade capital,
            management, earnings, and sensitivity component ratings to 4. The
            examination was part of the safety and soundness examination
            initiated in June 2008.

7/29/2008   OTS rejects ASB's capital-raising initiatives detailed in the July 21,
            2008, notification. OTS also directs ASB to record the appropriate
            adjusting or reversing journal entries for improper transactions made
            regarding capital and earnings.

7/29/2008   OTS issues a supervisory directive to ASB prohibiting the thrift from
            initializing transactions with affiliates exceeding $20,000 without
            prior written notification and receipt of written non-objection from
            OTS.

7/29/2008   OTS issues a letter notifying ASB of its undercapitalized status,
            being deemed in troubled condition, and the downgrade of its
            CAMELS composite rating to 4.

8/1/2008    OTS conducts a limited examination to downgrade ASB’s CAMELS
            composite rating from 4 to 5 and its capital and management
            component ratings from 4 to 5. This examination was part of the
            safety and soundness examination initiated in June 2008.

8/1/2008    OTS issues a letter notifying ASB of its critically undercapitalized
            status, the downgrade of its CAMELS composite rating to 5, and
            the requirement to file a capital restoration plan by August 11,
            2008.

8/4/2008    The Federal Reserve Bank of Kansas City issues a letter placing
            ASB’s Federal Reserve account on real-time monitoring. The net
            debit cap is reduced to a zero cap.

8/5/2008    FDIC issues a letter to ASB allowing the thrift to borrow $25 million
            from the Federal Home Loan Bank.

8/7/2008    The Federal Home Loan Bank and the Federal Reserve Bank
            terminate lines of credits to ASB.



            Material Loss Review of American Sterling Bank (OIG-10-011)      Page 43
            Appendix 4
            Chronology of Significant Events




8/8/2008    OTS downgrades ASB's CAMELS liquidity component rating from 2
            to 5.

8/11/2008   OTS issues a letter to the ASB board of directors disapproving of an
            ASB media statement disclosing the bank’s prompt corrective action
            (PCA) status.

8/12/2008   ASB’s board of directors approves a proposed OTS cease and desist
            (C&D) order.

8/13/2008   OTS issues a letter notifying ASB of deficiencies in its capital
            restoration plan.

8/13/2008   OTS issues a supervisory directive to the ASB board restricting
            communication of inaccurate or confidential supervisory information
            to the news media.

8/20/2008   OTS issues a C&D order to ASB. The order includes requirements
            that ASB (1) meet and maintain a leverage ratio of 7.5 percent and
            total risk-based capital of 10 percent by September 12, 2008; (2)
            submit to OTS a weekly status report regarding its capital-raising
            activities; (3) file a capital restoration plan; (4) submit a written
            demand to the holding company for a cash payment of $2 million;
            (5) not accept any noncash contributions of any type; (6) ensure
            the accuracy of its thrift financial reports; (7) not prepare any
            dividend or other capital distribution; (8) not engage in any
            transaction with any affiliate in an amount exceeding $20,000.

8/22/2008   FDIC approves ASB's request to rescind a lender's representation
            and warranty master policy that ASIC sold to ASB.

8/23/2008   ASB and ASIC agree to a total rescission of the lender's
            representation and warranty master policy.

8/26/2008   OTS approves the extension of the due date of the 2007 external
            audit.

8/28/2008   OTS issues a supervisory directive to ASB regarding valuation of the
            held for sale portfolio and the adjustment for those projections on



            Material Loss Review of American Sterling Bank (OIG-10-011)        Page 44
             Appendix 4
             Chronology of Significant Events




             the balance sheet as of September 12, 2008.

9/19/2008    OTS regional enforcement counsel submits a recommendation to
             conduct a formal examination of the board of directors and senior
             management of the thrift and the holding company regarding certain
             bookkeeping entries that had the effect of materially
             misrepresenting the financial condition of the bank.

9/23/2008    OTS conducts a limited examination to downgrade ASB’s CAMELS
             asset quality component rating from 3 to 4.

9/24/2008    OTS issues a supervisory directive to ASB to reflect fair value
             adjustments on ASB's books and provide notification of the
             downgrade of ASB’s CAMELS asset quality component rating to 4.

10/10/2008   OTS designates ASB as significantly undercapitalized after a $7.5
             million capital infusion from the holding company.

10/14/2008   The OTS Western Region director approves the recommendation
             submitted on September 19, 2008, for the formal examination of
             ASB.

11/7/2008    OTS receives notification that ASB reached a settlement with
             Countrywide Home Loans (Countrywide) that required ASB to sell at
             least 70 percent of all qualifying loans originated each month from
             December 1, 2008, through April 30, 2010, to Countrywide. In
             exchange, Countrywide agreed to accept the $4.3 million it had
             withheld from ASB as settlement of all the recourse claims that
             Countrywide had made against ASB until the time of the agreement.

11/12/2008   OTS approves ASB's November 7, 2008 resolution with
             Countrywide.

11/26/2008   OTS extends deadlines for compliance with the August 20, 2008,
             C&D order.

12/31/2008   OTS rejects ASB’s capital restoration plan and issues a notice of
             intent to issue a PCA directive.

12/31/2008   A potential acquirer files a holding company application with OTS



             Material Loss Review of American Sterling Bank (OIG-10-011)   Page 45
               Appendix 4
               Chronology of Significant Events




               related to the proposed acquisition of ASB.

January 2009   ASB’s co-CEOs and an executive vice president resign.

1/9/2009       ASC and a potential acquirer enter into a stock purchase agreement
               for the sale of ASB stock, which they amend on January 16, 2009.
               The agreement is contingent upon approval of the potential
               acquirer’s application for funding under the Troubled Asset Relief
               Program.

1/12/2009      OTS issues a liquidity directive to ASB that directs ASB to maintain
               $50 million in cash and cash equivalents.

1/14/2009      OTS designates ASB as critically undercapitalized.

1/15/2009      OTS issues a PCA directive that requires ASB to improve its capital
               and includes restrictions on capital distributions, management fees,
               and asset growth.

1/15/2009      OTS approves a holding company application for the potential
               acquirer to purchase the stock of ASB. OTS extends the February
               14, 2009, deadline for consummation of the acquisition to March
               31, 2009, and later extends the deadline to April 30, 2009.

1/21/2009      ASB’s chief operating officer becomes interim CEO.

1/22/2009      OTS issues a supervisory directive stating that ASB must submit an
               updated list of loan repurchase requests and all other legal claims by
               January 30, 2009.

2/2/2009       OTS sends a letter to ASB notifying the thrift of a proposed civil
               money penalty regarding the violation of flood insurance regulations.
               OTS found that ASB engaged in a pattern or practice of violations
               of 12 CFR § 572.9(C), which requires that a savings association
               that makes, increases, extends, or renews a loan secured by a
               building or mobile home located or to be located in a special flood
               hazard area must provide a written notice of this fact to the
               borrower “within a reasonable time before completion of the
               transaction.” OTS’s review of a sample of 25 loans revealed 19
               instances in which ASB had failed to provide the required notice



               Material Loss Review of American Sterling Bank (OIG-10-011)    Page 46
            Appendix 4
            Chronology of Significant Events




            within a reasonable time before completion of the transaction.

2/4/2009    OTS issues a supervisory directive to ASC directing ASC to
            immediately reimburse ASB $192,304 for all unpaid intercompany
            payables of ASC and its nonbank subsidiaries that were made in
            violation of OTS’s August 26, 2008, C & D order concerning
            transactions with affiliates.

3/4/2009    OTS issues a civil money penalty, effective March 30, 2009,
            requiring that ASB pay $1,600 for failing to make a delivery of a
            written notice of the availability of flood insurance within a
            reasonable time before the completion of transactions in cases in
            which loans were secured by buildings or mobile homes located or
            to be located in special flood hazard areas.

3/5/2009    OTS approves a 30-day extension for the filing of ASB’s December
            31, 2008, audit reports.

4/17/2009   OTS rejects ASB's capital restoration plan.

4/17/2009   ASB is closed by OTS and placed into FDIC receivership.




            Material Loss Review of American Sterling Bank (OIG-10-011)      Page 47
                         Appendix 5
                         OTS Examinations and Enforcement Actions




                         This appendix lists the Office of Thrift Supervision’s (OTS) full-
                         scope safety and soundness examinations of American Sterling
                         Bank (ASB) beginning March 2004 until the thrift’s failure in April
                         2009 and provides information on the significant results of those
                         examinations. OTS also performed six limited-scope examinations
                         during 2008, which did not include matters requiring board
                         attention (MRBA) or corrective actions. Generally, MRBAs
                         represent the most significant items requiring corrective action
                         found by the examiners.

                                         Significant safety and soundness MRBAs,
Start/end                                corrective actions, recommendations, and
                                                                                                      Enforcement
date of       CAMELS      Assets         other issues cited in reports of examinations
                                                                                                      action
examination   Ratings     ($ millions)   and limited examination reports

3/29/2004     2/222222    $239           Matters requiring board attention                            None
5/11/2004                                    •    None


                                         Corrective actions
                                              •    None
                                         Other issues/recommendations
                                             •     Asset Quality: Management should classify the
                                                   $390,000 unsecured credit to Millennium Gate
                                                   Foundation as a loss.
                                             •     Management: Management should reassess
                                                   monthly provisions once it establishes an
                                                   adequate loss history for the mortgage banking
                                                   operation.
                                             •     Management: Management should develop a
                                                   management continuity and succession plan for
                                                   key officers.
                                             •     Management: Directors should avoid conflicts
                                                   of interest of any sort, or even the appearance
                                                   of a conflict of interest.
                                             •     Management: ASB should improve
                                                   documentation of outstanding exceptions,
                                                   management responses, and timelines for
                                                   improvements.
                                             •    Management: Management should update the
                                                  institution’s Gramm Leach Bliley Act risk
                                                  assessment to reflect current risk priorities and
                                                  to evaluate the adequacy of controls to protect
                                                  confidential information.  
                                             •    Earnings: Core income improved due to an
                                                  increase in mortgage loan interest income, fee
                                                  income, and a decrease in the interest expense
                                                  on deposits. However, core earnings remained
                                                  negative due to the impact of the general and
                                                  administrative expenses.
                                             •    Liquidity: Management should develop and the
                                                  board should approve written guidance for the
                                                  management of liquidity and cash flows. Also,
                                                  the board or an appropriate committee should
                                                  receive and monitor periodic reports projecting



                         Material Loss Review of American Sterling Bank (OIG-10-011)                          Page 48
                         Appendix 5
                         OTS Examinations and Enforcement Actions




                                         Significant safety and soundness MRBAs,
Start/end                                corrective actions, recommendations, and
                                                                                                     Enforcement
date of       CAMELS      Assets         other issues cited in reports of examinations
                                                                                                     action
examination   Ratings     ($ millions)   and limited examination reports

                                                  cash flows.
1/03/2006     2/222222    $194           Matters requiring board attention                           None
3/09/2006                                    •    None


                                         Corrective actions
                                              •    None



                                         Other issues/recommendations
                                             •     Asset quality: Asset quality remains
                                                   satisfactory. However, despite a decline in
                                                   loans, classified assets and nonperforming
                                                   loans increased during the review period.
                                             •     Asset quality: Classified assets increased
                                                   $657,000 to $6.5 million since the prior
                                                   examination. This was due to a $3.2 million
                                                   increase in classified loans and a $2.6 million
                                                   decrease in real estate owned.
                                             •     Earnings: The mortgage banking division failed
                                                   to break even in 2005.The president attributed
                                                   the lower production to a slowdown in
                                                   refinance activity and the departure of two
                                                   high-volume loan producers.
                                             •     Liquidity: ASB operates a very active mortgage
                                                   banking function. It originates loans through a
                                                   network of brokers, underwrites the loans to
                                                   investor specifications, and sells them to
                                                   investors on a servicing released basis.




                         Material Loss Review of American Sterling Bank (OIG-10-011)                         Page 49
                         Appendix 5
                         OTS Examinations and Enforcement Actions




                                         Significant safety and soundness MRBAs,
Start/end                                corrective actions, recommendations, and
                                                                                                          Enforcement
date of       CAMELS      Assets         other issues cited in reports of examinations
                                                                                                          action
examination   Ratings     ($ millions)   and limited examination reports

4/09/2007     3/223322    $249            Matters requiring board attention                               None
7/23/2007                                    •     Management: Revise and approve the
                                                   management succession plan. Submit a copy of
                                                   the management succession plan to OTS.
                                             •     Management: Appoint a local, full-time chief
                                                   executive officer (CEO); submit a copy of the
                                                   resolution to OTS.
                                             •     Earnings: Beginning August 31, 2007, submit
                                                   monthly production reports, operating results,
                                                   and budget variance reports to OTS within 30
                                                   days of each calendar month-end.
                                          Corrective actions
                                              •    Management: Revise and approve the
                                                   management succession plan by September
                                                   30, 2007. Submit a copy of the revise plan to
                                                   OTS.
                                              •    Management: Appoint a full-time, local CEO by
                                                   September 30, 2007, and submit a copy of the
                                                   resolution to OTS.
                                              •    Earnings: Submit production reports, operating
                                                   results, and budget variance reports to OTS
                                                   within 30 days of each calendar month-end.
                                          Other issues/recommendations
                                             •     Capital: By the end of the December 2006
                                                   quarter, ASB reported core and risk-based
                                                   capital ratios of 5.19 percent and 8.36 percent,
                                                   respectively. Since the risk-based capital ratio
                                                   fell below 10 percent, ASB’s capital status
                                                   declined from well-capitalized to adequately
                                                   capitalized.
                                             •     Capital: Effective March 2007, American
                                                   Sterling Corporation (ASC) provided ASB a $2
                                                   million capital injection to help the thrift qualify
                                                   as well-capitalized. ASC also purchased a
                                                   problem loan from ASB, paying the entire
                                                   $400,000 balance, which the thrift had
                                                   previously charged off.
                                             •     Capital: As of March 31, 2007, ASB reported a
                                                   core capital ratio of 6.72 percent and total risk-
                                                   based ratio of 11.71 percent, which exceeded
                                                   the thresholds for well-capitalized.
                                             •     Asset quality: Management must closely
                                                   monitor large loan concentrations against the
                                                   loan to one borrower (LTOB) limit to prevent
                                                   future violations.
                                             •     Management: ASB must monitor all critical
                                                   vendors and document the reviews in the Early
                                                   Default Payment Steering Committee or board
                                                   minutes.
                                             •     Earnings: Management must file Schedule CMR
                                                   (Consolidated Maturity and Rate) for the June
                                                   2007 quarter and subsequent quarters in a
                                                   timely manner.




                         Material Loss Review of American Sterling Bank (OIG-10-011)                              Page 50
                          Appendix 5
                          OTS Examinations and Enforcement Actions




                                          Significant safety and soundness MRBAs,
Start/end                                 corrective actions, recommendations, and
                                                                                                         Enforcement
date of        CAMELS      Assets         other issues cited in reports of examinations
                                                                                                         action
examination    Ratings     ($ millions)   and limited examination reports

6/27/2007                  N/A            OTS conducts a limited examination to downgrade ASB’s          None
                                          CAMELS composite rating from 2 to 3.
6/27/2007
(Limited
examination)
4/09/2008      3/233322    N/A            OTS downgrades ASB’s Asset Quality rating from 2 to 3.         • Supervisory
                                                                                                           Directive
4/09/2008
                                                                                                           issued
(Limited
                                                                                                           6/13/2008
examination)
6/30/2008      5/545544   $258            Matters requiring board attention                              • Supervisory
                                          •   Capital: Recapitalize the bank to be adequately              Directive
12/05/2008                                                                                                 issued
                                              capitalized or execute an agreement to sell or merge
                                              ASB that is acceptable to OTS                                7/29/2008,
                                          •   Asset quality: Obtain independent fair value                 8/13/2008,
                                              assessments of the held for sale (HFS) portfolio on a        8/28/2008,
                                              quarterly basis and record appropriate entries               9/24/2008,
                                              reflecting this valuation on the institution’s financial     1/22/2009,
                                              statements.                                                  and 2/4/2009,
                                          •   Asset quality: Bring loans exceeding LTOB                  • Cease and
                                              limitations into compliance.                                 desist (C&D)
                                          •   Management: Engage an independent, qualified                 order: 8/20/
                                              individual to review all books and records, financial        2008
                                              reports, and all accounting-related policies and           • PCA:
                                              procedures to ensure that they accurately reflect the        1/15/2009
                                              institution’s financial position, provide adequate         • Civil money
                                              controls, and are consistent with generally accepted         penalty:
                                              accounting principles (GAAP) and prudent                     3/30/2009
                                              accounting practices.
                                          •   Management: Hire an individual responsible for
                                              maintaining accurate books and records, complying
                                              with GAAP and prudent accounting practices, and
                                              keeping the board fully aware of financial matters.
                                          •   Liquidity: Make all efforts to renegotiate investor
                                              contracts as soon as possible to limit or eliminate
                                              the institution’s early payment default risk.
                                          •   Liquidity: Submit to OTS a status report on all
                                              claims to early payment default risk or other similar
                                              demands.
                                          •   Liquidity: Monitor early payment default (EPD) risk
                                              and other liability for sold loans and establish and
                                              maintain an appropriate contingent liability to
                                              account for this risk.
                                          •   Sensitivity to market risk: The board and
                                              management must improve internal rate of return
                                              (IRR) management practices to fully comply with
                                              Thrift Bulletin 13a, including documenting and
                                              validating the methodologies and assumptions
                                              utilized in the internal model.
                                          •   Sensitivity to market risk: Obtain an independent
                                              review of internal controls governing the IRR
                                              management process. The review should include an
                                              assessment of the assumptions, parameter values,
                                              and methodologies used in the internal model.




                          Material Loss Review of American Sterling Bank (OIG-10-011)                                Page 51
                        Appendix 5
                        OTS Examinations and Enforcement Actions




                                         Significant safety and soundness MRBAs,
Start/end                                corrective actions, recommendations, and
                                                                                                        Enforcement
date of       CAMELS     Assets          other issues cited in reports of examinations
                                                                                                        action
examination   Ratings    ($ millions)    and limited examination reports

                                         •    Sensitivity to market risk: Reconcile OTS and
                                              internal model results and quarterly thereafter.
                                        Corrective actions
                                         •    Capital adequacy: Management and the board shall
                                              increase capital to the required level mandated in
                                              the C&D order and the Capital Directive. OTS
                                              apprised the board of its obligation, formalized in the
                                              C&D order, to sell or merge the institution or obtain
                                              a capital infusion to bring ASB to at least adequately
                                              capitalized by December 31, 2008.
                                         •    Asset quality: Management and the board should
                                              obtain independent fair value assessments of the
                                              HFS portfolio on a quarterly basis and record
                                              appropriate entries reflecting this valuation on the
                                              institution’s financial statements.
                                         •    Asset quality: Management and the board must
                                              bring loans exceeding LTOB limitations into
                                              compliance.
                                         •    Management: By January 31, 2009, the board
                                              should engage an independent, qualified individual
                                              to review all books and records, financial reports,
                                              and all accounting-related policies and procedures to
                                              ensure that they accurately reflect the institution’s
                                              financial position, provide adequate controls, and
                                              are consistent with GAAP and prudent accounting
                                              practices.
                                         •    Management: The board should hire a competent
                                              accounting professional responsible for maintaining
                                              accurate books and records, complying with GAAP
                                              and prudent accounting practices, and keeping the
                                              board fully aware of financial matters.
                                         •    Liquidity: ASB must renegotiate investor contracts
                                              to limit or eliminate the institution’s EPD risk.
                                         •    Liquidity: ASB must monitor its EPD risk and other
                                              liability for sold loans and establish and maintain an
                                              appropriate contingent liability to account for this
                                              risk.
                                         •    Liquidity: By December 31, 2008, ASB must submit
                                              a status report of all demands from investors to
                                              repurchase loans or otherwise pay damages.
                                         •    Sensitivity to market risk: Management must
                                              implement procedures to ensure the preparation and
                                              filing of an accurate Schedule CMR.
                                         •    Sensitivity to market risk: By January 31, 2009, the
                                              board and management must improve IRR
                                              management practices to fully comply with Thrift
                                              Bulletin 13a.
                                         •    Sensitivity to market risk: Management must
                                              document and validate the methodologies and
                                              assumptions utilized in the internal model.
                                         •    Sensitivity to market risk: The board must ensure
                                              that ASB obtains an independent review of internal
                                              controls governing the IRR management process.
                                              The review should include an assessment of the
                                              assumptions, parameter values, and methodologies



                        Material Loss Review of American Sterling Bank (OIG-10-011)                             Page 52
                        Appendix 5
                        OTS Examinations and Enforcement Actions




                                        Significant safety and soundness MRBAs,
Start/end                               corrective actions, recommendations, and
                                                                                                    Enforcement
date of       CAMELS     Assets         other issues cited in reports of examinations
                                                                                                    action
examination   Ratings    ($ millions)   and limited examination reports

                                            used in the internal model.
                                        •   Sensitivity to market risk: Management must
                                            reconcile OTS and internal model results, provide
                                            written explanation for variances, and report to the
                                            board at least quarterly.

                                        Other issues/recommendations
                                        •   Capital: ASB’s current capital levels are
                                            noncompliant with the C&D order. ASB also fails to
                                            comply with PCA regulations as management did
                                            not provide an acceptable capital restoration plan.
                                        •   Capital: Management recorded inappropriate
                                            noncash capital contributions and did not deduct all
                                            required amounts from regulatory capital.
                                        •   Capital: OTS identified several items resulting in
                                            overstatement of the level of capital and respective
                                            capital ratios. The items were improperly recorded
                                            capital transactions related to loans and
                                            intercompany receivables from the holding company
                                            totaling $3 million, failure to deduct disallowed
                                            deferred tax assets from capital, and consolidated
                                            capital requirement reporting errors. As a result of
                                            this false and misleading reporting of capital, ASB
                                            obtained brokered deposits in violation of 12 C.F.R.
                                            337.6 and continued mortgage banking operations
                                            without sufficient support to its operations.
                                        •   Asset quality: Problem loans were high and ASB had
                                            a large unrecognized mark-to-market loss on the
                                            loans in its HFS portfolio.
                                        •   Asset quality: Accounting practices were
                                            noncompliant with GAAP, resulting in untimely
                                            recognition of loan and market losses.
                                        •   Asset quality: Classification of assets was
                                            inconsistent with internal policy and recommended
                                            industry practice.
                                        •   Asset quality: The allowance for loan and lease
                                            losses was not adequate and the institution’s
                                            methodology for establishing it needs revision.
                                        •   Management: Concerns and significant risks were
                                            not adequately identified, measured, monitored, or
                                            controlled and now threaten the viability of the
                                            institution.
                                        •   Management: Issues of material concern include
                                            failure to maintain adequate capital commensurate
                                            with risk. Also of concern is the institution’s
                                            inappropriate accounting entries, inaccurate books
                                            and records, failure to comply with regulations and
                                            prudent operating practice, and inappropriate
                                            transactions with affiliates.
                                        •   Management: Management did not correct all
                                            information technology deficiencies identified at the
                                            previous examination, and a third-party review of
                                            ASB’s information technology operations disclosed
                                            additional deficiencies that ASB was in the process
                                            of correcting.




                        Material Loss Review of American Sterling Bank (OIG-10-011)                         Page 53
                        Appendix 5
                        OTS Examinations and Enforcement Actions




                                        Significant safety and soundness MRBAs,
Start/end                               corrective actions, recommendations, and
                                                                                                       Enforcement
date of       CAMELS     Assets         other issues cited in reports of examinations
                                                                                                       action
examination   Ratings    ($ millions)   and limited examination reports

                                        •   Management: ASB lacked a program to audit/verify
                                            its compliance with Fair Lending regulations.
                                        •   Management: OTS found recurring violations of the
                                            notice requirements of the Flood Disaster Protection
                                            Act. This is a repeat violation from the prior
                                            examination.
                                        •   Earnings: Earnings were critically deficient and
                                            insufficient to support operations and maintain
                                            appropriate capital and allowance levels.
                                        •   Earnings: Losses were driven by high operating
                                            costs associated with the institution’s ill-timed
                                            expansion of its mortgage banking operations and
                                            insufficient loan production. Escalating levels of
                                            problem assets caused by weakened real estate and
                                            credit markets also contributed to the losses.
                                        •   Earnings: Financial statements were not accurate.
                                            Deficiencies included the failure to comply with
                                            GAAP, false and misleading accounting entries,
                                            failure to recognize loan losses in a timely manner,
                                            and stale-dated and unsupported accounting items.
                                        •   Liquidity: Liquidity diminished during the review
                                            period as loan application volume exceeded ASB’s
                                            capability to effectively process loans and quickly
                                            consummate loan sales with investors.
                                        •   Liquidity: The liquidity strategy was not adequate
                                            and culminated in a liquidity shortage in March/April
                                            2008. ASB resolved the liquidity shortage by
                                            obtaining $19 million in short-term brokered
                                            deposits. In August 2008, another liquidity crisis
                                            developed that continues to threaten the viability of
                                            the institution.
                                        •   Liquidity: Additional significant concerns with the
                                            mortgage operation were the inaccurate valuation of
                                            the mortgage loan warehouse, the failure to revise
                                            investor contracts to limit the impact of EPDs, and
                                            the large amount of investor-rejected loans held in
                                            the HFS portfolio. OTS found on average that the
                                            institution was valuing the loans in the warehouse
                                            at par, which was not consistent with GAAP and
                                            not commensurate with the risk of the loans in the
                                            HFS portfolio.
                                        •   Liquidity: In June 2008, Countywide demanded that
                                            ASB repurchase approximately $32.5 million in
                                            loans due to EPD concerns. During the examination,
                                            Countrywide deducted $4.1 million in previously
                                            withheld loan sale proceeds. Management reported
                                            this amount as a receivable and wrote off this
                                            amount during the examination. Management must
                                            review this exposure and establish and maintain an
                                            appropriate contingent liability to account for this
                                            risk at least quarterly.
                                        •   Liquidity: Certain risk limit guidelines were either out
                                            of date, were exceeded on several occasions, or
                                            were not being formally monitored for compliance.
                                            Management attributed these weaknesses to poor




                        Material Loss Review of American Sterling Bank (OIG-10-011)                            Page 54
                          Appendix 5
                          OTS Examinations and Enforcement Actions




                                          Significant safety and soundness MRBAs,
Start/end                                 corrective actions, recommendations, and
                                                                                                      Enforcement
date of        CAMELS      Assets         other issues cited in reports of examinations
                                                                                                      action
examination    Ratings     ($ millions)   and limited examination reports

                                              documentation and will improve documentation and
                                              revise applicable policies to address these concerns.
                                          •   Sensitivity to market risk: Due to material CMR
                                              reporting errors, weaknesses in model assumptions
                                              relied on by ASB, and inadequate books and
                                              records, OTS could not fully assess the institution’s
                                              IRR profile.


7/29/2008      4/434424   N/A                 This limited examination was part of the ongoing        Issuance of
                                              full-scope safety and soundness examination that        PCA directives
7/30/2008                                     started on June 30, 2008. The examination report        associated with
(Limited                                      recommended the downgrade of ASB’s composite            undercapitalized
examination)                                  rating from 3 to 4 and recommended the                  status
                                              downgrades of Capital, Management, Earnings, and
                                              Sensitivity component ratings to 4.


8/01/2008      5/535424   N/A                 This limited examination was part of the ongoing        Issuance of
                                              full-scope safety and soundness examination that        PCA directives
8/01/2008                                     started on June 30, 2008. The examination report        associated with
(Limited                                      recommended the downgrade of ASB’s composite            critically
examination)                                  rating from 4 to 5 and the Capital and Management       undercapitalized
                                              component ratings from 4 to 5.                          status


8/08/2008      5/535454   N/A                 OTS downgraded ASB’s Liquidity rating from 2 to 5.      None
8/08/2008
(Limited
examination)
9/23/2008      5/545454   N/A                 OTS downgraded ASB’s Asset Quality rating from 3        None
                                              to 4.
9/23/2008
(Limited
examination)




                          Material Loss Review of American Sterling Bank (OIG-10-011)                             Page 55
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations




We have completed, prior to this review, six mandated material loss reviews of failed
thrifts since September 2007, starting with the material loss review of NetBank, FSB.
This appendix provides our recommendations to the Office of Thrift Supervision (OTS)
resulting from these reviews. OTS management concurred with the recommendations
and has taken or planned corrective actions that are responsive to the
recommendations. In certain instances, the recommendations address matters that
require ongoing OTS management and examiner attention.

 Report Title                                       Recommendations to OTS Director
 Safety and Soundness: Material Loss Review of      Ensure that the recommendations/lessons
 NetBank, FSB, OIG-08-032 (Apr. 23, 2008)           learned from OTS’s internal assessments of the
                                                    NetBank failure, as described on pages 21 and
 OTS closed NetBank and appointed the Federal       28 of that report, are implemented.
 Deposit Insurance Corporation (FDIC) as receiver
 on September 28, 2007. At that time, FDIC          Re-emphasize to examiners that for 3-rated
 estimated that NetBank’s failure would cost the    thrifts, formal enforcement action is presumed
 Deposit Insurance Fund $108 million.               warranted when certain circumstances identified
                                                    in the OTS Examination Handbook are met.
                                                    Examiners are also directed to document in the
                                                    examination files the reason for not taking
                                                    formal enforcement action in those
                                                    circumstances.

                                                    Establish in policy a process to assess the
                                                    causes of thrift failures and the supervision
                                                    exercised over the institution and to take
                                                    appropriate action to address any significant
                                                    supervisory weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of      Ensure that action is taken on the lessons
 IndyMac Bank, FSB, OIG-09-032 (Feb. 26,            learned and recommendations from the OTS
 2009)                                              internal review of the IndyMac failure.

 OTS closed IndyMac on July 11, 2008, and           Caution examiners that assigning composite
 named FDIC as conservator. As of May 8, 2009,      CAMELS ratings of 1 or 2 to thrifts with high-
 FDIC estimated that IndyMac’s failure would        risk, aggressive-growth business strategies
 cost the Deposit Insurance Fund $10.7 billion.     needs to be supported with compelling, verified
                                                    mitigating factors. Such mitigating factors
                                                    should consider things such as the institution’s
                                                    corporate governance, risk management
                                                    controls, allowance for loan and lease losses
                                                    methodologies, concentration limits, funding
                                                    sources, underwriting standards, and capital
                                                    levels and whether the mitigating factors are
                                                    likely to be sustainable in the long-term. Another
                                                    important factor that should be considered is the
                                                    extent to which the thrift offers nontraditional
                                                    loan products (regardless of whether loans are



                     Material Loss Review of American Sterling Bank (OIG-10-011)                Page 56
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




                                                   sold or retained) that have not been stress-
                                                   tested in difficult financial environments and
                                                   whether the thrift can adequately manage the
                                                   risks associated with such products. OTS should
                                                   re-examine and refine as appropriate its guidance
                                                   in this area.

Safety and Soundness: Material Loss Review of      Remind examiners of the risks associated with
Ameribank, Inc., OIG-09-036 (Apr. 7, 2009)         rapid growth in high-risk concentrations.

OTS closed Ameribank and appointed FDIC as         Remind examiners to conduct more thorough
receiver on September 19, 2008. As of              loan sampling from the portfolio if they identify a
December 31, 2008, FDIC estimated that             rapid increase in concentration.
Ameribank’s failure would cost the Deposit
Insurance Fund $33.4 million.                      Remind examiners of the examination guidance
                                                   for thrift third-party relationships, with particular
                                                   attention to the assessment of the risk the
                                                   relationship may pose to the thrift’s safety and
                                                   soundness.

                                                   Assess the need for guidance requiring risk
                                                   assessment of construction rehabilitation
                                                   account loans as an integral part of assessing
                                                   the thrift’s overall risk.

                                                   Ensure that the recommendations and the
                                                   lessons learned from OTS’s internal assessment
                                                   of the Ameribank failure are implemented.

Safety and Soundness: Material Loss Review of      Ensure that the recommendations from OTS’s
PFF Bank and Trust, OIG-09-038 (June 12,           internal assessment of the PFF failure are
2009)                                              implemented and that the lessons learned from
                                                   the assessment are taken into account going
OTS closed PFF and appointed FDIC as receiver      forward. In this regard, OTS should do the
on November 21, 2008. As of May 8, 2009,           following:
FDIC estimated that PFF’s failure would cost the
Deposit Insurance Fund $729.6 million.             Direct examiners to closely review and monitor
                                                   thrifts that refuse to establish appropriate limits
                                                   of concentrations that pose significant risk and
                                                   pursue corrective action when concentration
                                                   limits are not reasonable.

                                                   Formally communicate the guidance in ND
                                                   Bulletin 06-14 as to OTS’s expectation that
                                                   concentration measurements and limits be set as
                                                   a percentage of capital, not just as a percentage
                                                   of total assets or loans.

                                                   Formally communicate the need for a sound



                    Material Loss Review of American Sterling Bank (OIG-10-011)                    Page 57
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations




                                                   internal risk management system that includes
                                                   stress testing, regular periodic monitoring, and
                                                   other risk management tools for higher-risk
                                                   concentrations.
Safety and Soundness: Material Loss Review of      Ensure that the recommendations from OTS’s
Downey Savings and Loan, FA, OIG-09-039            internal assessment of the Downey failure are
(June 15, 2009)                                    implemented and that the lessons learned from
                                                   the assessment are taken into account going
OTS closed Downey and appointed FDIC as            forward. In this regard, OTS should do the
receiver on November 21, 2008. As of May 8,        following:
2009, FDIC estimated that Downey’s failure
would cost the Deposit Insurance Fund $1.4         Direct examiners to closely review and monitor
billion.                                           thrifts that refuse to establish appropriate limits
                                                   of concentrations that pose significant risk and
                                                   pursue corrective action when concentration
                                                   limits are not reasonable.

                                                   Assess the need for more guidance for
                                                   examiners on determining materiality of
                                                   concentrations and determining appropriate
                                                   examiner response to high-risk concentrations,
                                                   including when to impose absolute limits to
                                                   prevent excessive concentration

                                                   Formally communicate the need for a sound
                                                   internal risk management system that includes
                                                   stress testing, regular periodic monitoring, and
                                                   other risk management tools for higher-risk
                                                   concentrations.

                                                   Formally communicate the guidance in ND 06-14
                                                   as to OTS’s expectation that concentration
                                                   measurements and limits be set as a percentage
                                                   of capital, not just as a percentage of assets or
                                                   loans.
Safety and Soundness: Material Loss Review of      The director of OTS should do the following:
Suburban Federal Savings Bank, OIG-09-047
(Sept. 11, 2009)                                   Ensure that the recommendations from OTS’s
                                                   internal assessment of the Suburban failure are
OTS closed Suburban and appointed FDIC as          implemented and that the lessons learned from
receiver on January 30, 2009. As of August 14,     the assessments are taken into account going
2009, FDIC estimated that Suburban’s failure       forward.
would cost the Deposit Insurance Fund $126
million.                                           Ensure that regional offices more closely monitor
                                                   and scrutinize the amendments to thrift financial
                                                   reports made by institutions for accuracy and
                                                   consider appropriate action where chronic errors
                                                   are found, including enforcement action and
                                                   assessment of civil money penalties.



                    Material Loss Review of American Sterling Bank (OIG-10-011)                  Page 58
Appendix 6
Prior OIG Material Loss Review Recommendations




                               Have regional offices ensure that examiners
                               conduct timely and adequately scoped field visits
                               to determine whether thrifts with repeat
                               problems have taken appropriate corrective
                               action. In the event that the field visits find that
                               corrective action has not been taken, examiners
                               should be instructed to elevate the supervisory
                               response, including the taking of enforcement
                               action when necessary.




Material Loss Review of American Sterling Bank (OIG-10-011)                  Page 59
Appendix 7
Management Comments




Material Loss Review of American Sterling Bank (OIG-10-011)   Page 60
Appendix 8
Major Contributors to This Report




Jeffrey Dye, Audit Director
Jaideep Mathai, Audit Manager
Regina Morrison, Auditor-in-Charge
Alicia Bruce, Auditor
Rachael Draper, Intern
Gerald Steere, Referencer




Material Loss Review of American Sterling Bank (OIG-10-011)   Page 61
Appendix 9
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Acting Comptroller General of the United States




Material Loss Review of American Sterling Bank (OIG-10-011)   Page 62
